<html>
<title> - A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. ARMY CORPS OF ENGINEERS AND TENNESSEE VALLEY AUTHORITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



  A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE 
      U.S. ARMY CORPS OF ENGINEERS AND TENNESSEE VALLEY AUTHORITY

=======================================================================

                                (114-14)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

             
                              __________

                   U.S. GOVERNMENT PUBLISHING OFFICE
                
94-281 PDF                WASHINGTON: 2016
  _____________________________________________________________________________
  
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001           



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 ELEANOR HOLMES NORTON, District of 
JOHN KATKO, New York                 Columbia
BRIAN BABIN, Texas                   RICHARD M. NOLAN, Minnesota
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
GARRET GRAVES, Louisiana             Officio)
DAVID ROUZER, North Carolina
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works):

    Testimony....................................................     5
    Prepared statement...........................................    49
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................    58
        Hon. Bill Shuster of Pennsylvania........................    61
        Hon. Daniel Webster of Florida...........................    63
        Hon. Carlos Curbelo of Florida...........................    64
        Hon. Blake Farenthold of Texas...........................    65
Lieutenant General Thomas P. Bostick, Chief of Engineers, U.S. 
  Army Corps of Engineers:

    Testimony....................................................     5
    Prepared statement...........................................    69
    Response to question for the record from Hon. Glenn Thompson, 
      a Representative in Congress from the State of Pennsylvania    75
William Dean Johnson, President and Chief Executive Officer, 
  Tennessee Valley Authority:

    Testimony....................................................     5
    Prepared statement...........................................    77

                       SUBMISSIONS FOR THE RECORD

U.S. Army Corps of Engineers, responses to requests for 
  information from the following members of the Subcommittee on 
  Water Resources and Environment:

    Hon Bob Gibbs of Ohio 



    Hon. Daniel Webster of Florida...............................    14
    Hon. Jeff Denham of California...............................    16
    Hon. Rodney Davis of Illinois................................    39
Questions for the record for William Dean Johnson, President and 
  Chief Executive Officer, Tennessee Valley Authority, issued by 
  the majority side Subcommittee on Water Resources and 
  Environment....................................................    91
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
  A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE 
      U.S. ARMY CORPS OF ENGINEERS AND TENNESSEE VALLEY AUTHORITY

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. The hearing of the Subcommittee on 
Water Resources and Environment will come to order. 
Housekeeping here. I ask unanimous consent that the hearing 
record be kept open for 30 days after this hearing in order to 
accept other submissions of written testimony for the hearing 
record. Without objection, so ordered.
    Today we are having a hearing on review of the President's 
fiscal year 2016 budget request for the United States Army 
Corps of Engineers and the Tennessee Valley Authority. I would 
like to welcome everyone here to the hearing today to review 
the President's fiscal request and the Tennessee Valley 
Authority. The administration's budget proposal for fiscal year 
2016 continues an unfortunate trend of underinvesting in our 
Nation's water resources. Many of the Army Corps of Engineers' 
activities that we are examining are investments in America. 
For nearly two centuries, the Corps has contributed to the 
economic vitality of the Nation and has improved the quality of 
life. This administration keeps missing the opportunity to use 
the Civil Works Program as an investment in the country's 
future. This administration has time and time again not put the 
same priority in the Corps' program as Congress has.
    Congress and the administration both need to be supportive 
of programs that have a proven record of providing economic 
benefits. The fiscal year 2016 budget request by the 
administration for the Corps of Engineers is $4.7 billion, 
which is almost $750 million less than what Congress 
appropriated in fiscal year 2015. This is even more unfortunate 
given the strong bipartisan message set last Congress by the 
enactment of the Water Resources Reform and Development Act of 
2014.
    Congress made a conscious effort in WRRDA 2014 to enhance 
America's competitiveness by strengthening investments in the 
Nation's water resources infrastructure, including wrapping up 
the Harbor Maintenance Trust Fund expenditures for their 
intended purposes. But again, the President's budget proposes 
to spend only $915 million of the Harbor Maintenance Trust Fund 
for the operation and maintenance activities in fiscal year 
2016, half of what is estimated to be collected, that was 
collected in fiscal year 2015. These harbor maintenance taxes 
are paid by shippers for the purpose of maintaining America's 
ports.
    While this administration is not the first to shortchange 
America's water transportation systems, requesting only half of 
what was collected will not keep up with the growing demand at 
the ports. Budgets are about priorities. A priority of any 
administration should be to put the United States in a 
competitive advantage in world markets, especially since world 
trade patterns are expected to be dramatically different when 
the Panama Canal expansion begins operations next year.
    Additionally, when Congress enacted WRRDA 2014, there were 
several big ticket items included in the law. Provisions 
related to the Harbor Maintenance Trust Fund, the Inland 
Waterways Trust Fund, permit processing, project streamlining, 
WIFIA, public-private partnerships, and deauthorization of old 
and inactive projects were included in the law that was signed 
by the President in June of last year.
    While the WRRDA law was transformative and at times 
complicated, we remain disappointed at the pace and the 
prioritization in which the Corps of Engineers is carrying out 
the drafting and implementation guidance. As we are rapidly 
approaching the 1-year anniversary of the enactment of WRRDA 
2014, we would hope and expect the Corps would put more of a 
priority in writing implementation guidance. After all, WRRDA 
is the law of the land. It is not a suggestion for the 
administration to casually disregard.
    I am very pleased that the subcommittee will also hear 
about the Tennessee Valley Authority's budget. I want to 
welcome the TVA's president, Bill Johnson, who will be 
testifying for the first time before the subcommittee. The 
Tennessee Valley Authority is the Nation's largest wholesale 
power producer and fifth largest electric utility company.
    While TVA's power and nonpower programs have been funded 
through its revenue since 2001--meaning they receive no 
appropriated funds--we are concerned with the agency's overall 
financial health since the agency carries a rather large debt 
load. I anticipate that we will hear more about TVA's debt 
reduction plan today, especially in light of Mr. Johnson's 
impressive track record of reducing costs. I look forward to 
the testimony from our three witnesses today.
    At this time I recognize Mrs. Napolitano; pardon me, we are 
going to go to Mr. DeFazio first.
    Mrs. Napolitano. I defer to Mr. DeFazio.
    Mr. Gibbs. OK. First, the ranking member of the full T&I 
committee, Mr. DeFazio from Oregon.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman. Thank you, 
Mrs. Napolitano. You know, the Corps is an essential agency, 
and I don't envy the position you are in. You know, the fact is 
every year you come forward and you kind of have two paths with 
inadequate budgets. You can either, you know, sort of spread 
the money around and not do anything very well and drive up the 
cost of new projects, or you can concentrate the assets, the 
inadequate funding, and get some things done but then not do 
other things like dredging small ports, which are a lifeblood 
of so many communities, particularly of concern in my district. 
Particularly this year, since we didn't get winter flows, so we 
are going to have even more shoaling than normal, and if we 
forego that dredging, you know, people will probably die, but 
hey we are the United States of America, we can't afford it.
    You know, this is a difficult spot to be in, and I am not--
Ms. Darcy, I am not going to put you in the same spot as Mike 
Parker, but I do like to tell the Mike Parker story. Our former 
colleague had your position under President Bush, Democrat 
turned Republican, and Mike came to a very similar hearing and 
I was here and I just said to him straight up, ``Is this an 
adequate budget to do what you need to do and the Corps needs 
to do and deal with your backlog?'' and he said, ``No.'' Next 
week, for family reasons, he was resigning.
    So I realize there are consequences, but I have got to say 
that I am very--you know, I will recognize this administration 
has poured more money into O&M than any other administration in 
the last decade. That is good. But it is less than Congress 
just last year, by an unbelievably overwhelming vote, said, 
should be allocated. We were looking at, you know, a number 
that exceeded yours by about almost $2 billion. So, I am 
disappointed in the administration, and I know that is not up 
to either of you. You may put forward very honest budgets and 
then it goes to the trolls at OMB who don't care about 
infrastructure, so, you know, that is a problem.
    But I think one way we could deal with that is you now will 
testify again this year that on your long-term planning horizon 
that you are working on for 8 years about all the assets you 
have, the state of those assets, what your projected incomes 
are, and what you can do with them, we haven't seen that. We 
should see it. Congress should understand the magnitude of the 
deferred maintenance that is out there, the incapability of 
doing the annual maintenance that is out there, and maybe we 
can drive faster toward actually capturing the revenue source 
we have and dedicating the accumulated past funds in that 
revenue resource in the next award or reauthorization, taking 
you off budget and rebuilding America's infrastructure that 
relates to our water more in commerce and recreation and flood 
control and other critical issues.
    So I would really hope that you can produce that final and 
definitive comprehensive report because Congress should know. 
Congress is part of the problem. We underfund you. The 
administration is part of the problem. They recommend that you 
start out underfunded, and then Congress probably will chip a 
little bit more off it, so we are not in the strongest position 
we could be. With that, I thank you for your service. And 
General, I thank you for your service. You know, I want to do 
more for the Corps, and just give me some tools that I can use 
for those arguments. Thank you.
    Mr. Gibbs. Next I recognize Mrs. Napolitano, the ranking 
member from California.
    Mrs. Napolitano. Thank you so very much, Mr. Chairman, you 
are very gracious, and thank you for today's hearing on the 
Corps and the Tennessee Valley Authority. Thank you for our 
witnesses, and look forward to the testimony and thoughtful 
dialogue during the questioning.
    And Assistant Secretary Darcy and Lieutenant General 
Bostick, I just want to thank you for the amazing work that 
your staff does in California in helping with the local 
agencies, the flood control, harbor maintenance, the job 
response, et cetera, but more specifically, for Brigadier 
General Toy who has been excellent in working, his deputy 
Sherry Peterson and Colonel Colloton. They are just amazing 
people with David Van Dorpe. They have been a tremendous 
resource for our whole area in California.
    But I do also want to thank Assistant Secretary Darcy for 
her recent letters that the Corps has initiated negotiations 
for a separate--excuse me--contributed funds, first time. Thank 
you so much. That will help expedite some of the projects in 
our areas.
    The two projects, Prado and Whittier Narrows Dam critically 
needed to permanently capture more water during storm events 
when we have storms, and am pleased that they received your 
approval. Given the current droughts that we are experiencing, 
we need to utilize every single tool at our disposal to capture 
as much water as possible during those infrequent rain events.
    We thank you for your approval. Both the Corps and the 
Tennessee Valley Authority maintains, sustain our national and 
regional economies in a variety of ways, providing a safe and 
efficient means of shipping and navigation in our waterways. 
They protect our homes and businesses from flooding and provide 
energy to small and large communities alike, all while creating 
countless jobs across our country, sometimes with limited 
funding. As such, we must not only congratulate but commend 
those agencies for the work you do.
    We have, Mr. Chairman, 4 years in the majority's budget 
experiment of making the agencies do more with less. Sadly, 
this is shortsighted and has failed and the agencies are being 
forced to do less with less. And I agree with both my chairman 
and my ranking member that we are just shortchanging the 
agencies in our country. The projects are delayed. Their 
absolutely essential operations and maintenance projects are 
forced to compete for a piece of the pie. With the current 
budget climate, it is unsustainable, Mr. Chairman, I agree with 
you.
    I was pleased to see the increase of $142 million to the 
Corps in the energy and water appropriations bill. As you know, 
I am very keen on water. Every penny that increases necessary 
funds to vital projects, arguably, is still not enough. With 
only marginal increases in spending, we can only see that the 
agencies are still being forced to make tough choices and 
prioritize between tasks. There are literally hundreds of 
authorized Corps projects in studies and projects around the 
country, each of which was authorized on its own merits and all 
of which are important to our different communities.
    So when my colleagues fail to realize that greater 
investment in our Nation's water related infrastructure is an 
integral element of maintaining and sustaining the improvement 
of our Nation's economy as was seen in recent years. The math 
is simple. Inadequate funding results in delays. Delays result 
in mounting of insufficiencies that will continue to grow until 
ultimately failing at some dire point in the future. And in my 
view, we are gambling with our Nation's infrastructure 
investment programs, which is irresponsible and shortsighted.
    What we can be certain of, Mr. Chairman, is that nearly 
every Member of Congress has a direct need for safe and 
reliable energy for harbors, levees, or flood protection in our 
own backyard. The problem is that as the needs of our water 
infrastructure grow, our traditional budgetary mechanism meant 
to address the growing need diminishes. It is clear we must 
prioritize critical infrastructure spending to establish a 
clear path to forward the protection of our infrastructure. And 
I agree with both gentlemen, and I hope that we may be able to 
look at some future way of being able to sustain the 
infrastructure and maintenance. Thank you very much, Mr. 
Chairman.
    Mr. Gibbs. I would like to welcome our panel today. We have 
three witnesses. Our first witness is the Assistant Secretary 
of the Army-Civil Works, Secretary Darcy. Then we have General 
Bostick. He is the Chief of Engineers, Army Corps of Engineers, 
and Mr. Johnson is the president and CEO of the Tennessee 
Valley Authority, and also I would be remiss not to thank 
General Bostick and General Peabody behind him for their 
service and their careers serving our country in the United 
States military.
    Secretary Darcy, welcome, and the floor is yours.

 TESTIMONY OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
ARMY (CIVIL WORKS); LIEUTENANT GENERAL THOMAS P. BOSTICK, CHIEF 
 OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS; AND WILLIAM DEAN 
   JOHNSON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, TENNESSEE 
                        VALLEY AUTHORITY

    Ms. Darcy. Thank you. Thank you, Chairman Gibbs and 
distinguished members of the subcommittee. Thank you for the 
opportunity to present the President's budget for the Civil 
Works Program on the Army Corps of Engineers for fiscal year 
2016. This year's civil works budget reflects the 
administration's priorities through targeted investments in the 
Nation's water resources infrastructure, including dams and 
levees, navigation, and the restoration of ecosystems. It 
supports a civil works program that relies on a foundation of 
strong relationships between the Corps and our local 
communities, which allows us to work together to meet their 
water resources needs.
    The budget also helps us in our efforts to promote the 
resilience of communities to respond to the impacts of climate 
change. We are investing in research, planning, vulnerability 
assessments, pilot projects, and evaluations of the value and 
performance of nonstructural and natural measures. The budget 
helps us to maintain and improve our efforts on sustainability. 
For example, we are reducing the Corps' carbon footprint by 
increasing renewable electricity consumption, reducing 
greenhouse gas emissions, and reducing nontactical vehicle 
petroleum consumption. We are also advancing our sustainability 
efforts by using innovative financing techniques such as energy 
savings performance contracts.
    We are making important investments to promote the 
sustainable management of the lands around Corps facilities by 
providing funds to update the plans that govern how we manage 
our facilities and to help us to combat invasive species. The 
budget also focuses on maintaining the water resource's 
infrastructure that the Corps owns and manages, and on finding 
innovative ways to rehabilitate it, hand it over to others, or 
retire it.
    Here are some of our funding highlights for 2016. The 
budget provides $4.7 billion in gross discretionary 
appropriations for the Army Civil Works Program, focusing on 
investments that will yield high economic and environmental 
returns, or address the significant risk to public safety. The 
budget focuses funding on our three major mission areas, 
allocating 41 percent to commercial navigation, 27 percent to 
flood and storm damage reduction projects, and 9 percent to 
aquatic ecosystem restoration.
    Other investments include allocating 5 percent of the 
budget to hydropower, 2 percent to the cleanup of sites 
contaminated during the Nation's early years of the nuclear 
weapons program, and 4 percent for our regulatory activities. 
Overall, the budget funds 57 construction projects, 9 of them 
to completion. It also funds 54 feasibility studies, 13 of 
those to completion. The budget also includes four new 
construction starts, two of which the Corps will complete in 1 
year.
    The budget funds inland waterways capital investments at 
$974 million of which $53 million will be derived from the 
Inland Waterways Trust Fund. The budget provides $915 million 
from the Harbor Maintenance Trust Fund to maintain coastal 
channels and related work matching the highest amount ever 
budgeted. Forty-four million dollars is provided for a 
comprehensive levee safety initiative that will help us ensure 
that all Federal levees are safe and in line with the Federal 
Emergency Management Agency standards.
    This initiative will provide non-Federal entities with 
access to levee data that will inform them on safety issues for 
their levees. The budget supports a Corps program that has a 
diverse set of tools and approaches to working with local 
communities, whether this means funding projects with our cost-
sharing partners or providing planning assistance and technical 
expertise to help communities make better informed decisions.
    This year, the President's Civil Works budget provides $31 
million for the Corps to provide local communities with 
technical assistance and planning to help them develop and 
implant nonstructural approaches to improve their resilience to 
the impacts of climate change. We continue to contribute to 
this Nation's environmental restoration, and the budget 
provides funding to restore several large ecosystems that have 
been a focus of interagency collaboration, including the 
California Bay Delta, the Chesapeake Bay, the Everglades, the 
Great Lakes, and the gulf coast.
    Other funded Corps efforts include the Columbia River, some 
portions of the Puget Sound, and priority work in the Upper 
Mississippi and Missouri Rivers. Finally, this budget continues 
to fund our Veterans Curation Program which was started in 2009 
with support from the American Recovery and Reinvestment Act. 
This program offers veterans the opportunity to learn tangible 
work skills and gain experience by rehabilitating and 
preserving federally owned or administered archeological 
collections found at Corps projects.
    I look forward to working with the committee to advance the 
Army's Civil Works Program, and I look forward to your 
questions. Thank you.
    Mr. Gibbs. Thank you, Secretary.
    General Bostick, the floor is yours. Welcome.
    General Bostick. Mr. Chairman and members of the 
subcommittee, first, Mr. Chairman, thanks for recognizing the 
service of our military members. And I would like to point out 
that although John Peabody is not testifying today, this is the 
last hearing where he will prepare me and Secretary Darcy as he 
prepares for retirement. We are going to lose a great----
    Mr. Gibbs. We may have some more before August, you never 
know.
    Ms. Darcy. You might want to call him back.
    General Bostick. Sorry for opening that up. I am honored to 
testify before your committee today, along with the Honorable 
Jo-Ellen Darcy on the President's fiscal year 2016 budget for 
the Civil Works Program of the United States Army Corps of 
Engineers. This is my third time to testify before the 
subcommittee. I want to thank you for your past support, and I 
look forward to continuing our work together in the future.
    Today I would like to provide a brief update on our four 
campaign plan goals. First, we support national security. The 
Corps supports the national security of the United States. We 
are working in more than 110 countries using our civil works, 
military missions, water resources, and our research and 
development expertise to support the Nation's combatant 
commanders. Our Corps employees, both civilian and military 
from all across the Nation have volunteered and continue to 
volunteer to provide critical support to our military and 
humanitarian missions abroad.
    I just returned from Korea and Japan where we have 
multibillion-dollar programs in both locations. Our teams there 
are doing a tremendous job supporting our national security 
efforts in the Far East as we are doing in other parts of the 
world and throughout the United States.
    Second, Transform Civil Works focuses on four areas. First, 
modernizing the project planning process. Second, enhancing the 
budget development process. Third, developing an infrastructure 
strategy to evaluate the current inventory of projects, to help 
identify priorities and develop better solutions to water 
resources challenges. And fourth, improving our methods of 
delivery to produce and deliver sound decisions, products, and 
services that will improve the ways in which we manage and use 
our water resources.
    One example of our progress is that during each 7-year 
period, between 2000 and 2007, and then again between 2007 and 
2014, we completed an average of 40 Chief's Reports. Since 
modernizing our planning process, we are on track to complete 
25 Chief's Reports in just a year and a half, clear evidence 
that we are learning and becoming more efficient.
    In our third campaign plan goal, reduce disaster risk, we 
must continue to develop and improve strategies to reduce risk 
as well as respond in natural disasters when they occur. I 
continue to be very impressed with the work of the Army Corps 
of Engineers in this area. One example of this proficiency is 
Hurricane Sandy recovery work. The Flood Control and Coastal 
Emergencies program is over 95 percent complete. The Sandy 
Operations and Maintenance program is over 70 percent complete 
and on schedule to be 100 percent complete by the end of 2016. 
And I am pleased to highlight that the Army submitted the North 
Atlantic Coast Comprehensive Study on schedule to Congress and 
the American people on 28 January of this year.
    And fourth, prepare for tomorrow. This is all about our 
people, ensuring that we have a pipeline of talented military 
and civilian teammates as well as a strong leader development 
and talent management program.
    Equally important is helping our Nation's wounded warriors 
transition from military to civilian careers. Last year we set 
a goal to assist 125 wounded warriors, and we exceeded that 
goal by more than 50 percent. Nearly 200 wounded warriors found 
permanent positions within the Corps of Engineers or with other 
organizations. We are also focused on research and development 
efforts that will help solve some of the Nation's toughest 
challenges.
    Mr. Chairman, I ask that you and the other members of the 
committee refer to my complete written testimony for the fiscal 
year 2016 budget specifics. Thank you again for this 
opportunity, and I look forward to your questions.
    Mr. Gibbs. Thank you, General.
    Mr. Johnson, welcome.
    Mr. Johnson. Thank you, Mr. Chairman, Ranking Member 
Napolitano, distinguished members of the committee, for this 
opportunity to appear before you to discuss the Tennessee 
Valley Authority's 2016 fiscal year budget. Before I start, I 
would like to acknowledge the chairman of the TVA board who is 
sitting right behind me, you might not can see him, Joe Ritch, 
who is our first chairman from the State of Alabama, and we are 
delighted to have him here today.
    I have been at TVA for 2 years, and in that time I have 
been humbled by the honor and privilege of serving the 9 
million people in the 7 States we work in. Those people engage 
with TVA in a very responsible way. They pay for all the costs 
incurred by TVA.
    As the Chair noted, TVA's work is self-funded solely by 
sale to customers and power system financing in the public debt 
markets. In those 2 years, I have seen how TVA employees have 
improved relations with our customers, worked to modernize our 
generation portfolio, protected our natural resources, and 
improved nuclear and financial performance. We have had some 
challenges, record weather events, significant cost reduction 
initiatives, a stagnant economy, aging infrastructure, and the 
list increased, but we are meeting those challenges and 
strengthening our organization by focusing on our core mission: 
energy, environmental stewardship, and economic development.
    And this mission matters as much today to the people of the 
region as it did in 1933, so let me begin with a brief review 
of TVA's operations. You know, if you are in the energy sector, 
your first priority has to be safety, so I am pleased to report 
that we are in the top decile of safety in our industry and 
always working to get better.
    Listening to our customers has been a top priority, and the 
last several years we have greatly strengthened our 
relationships with both our local power company and direct-
serve customers. Two thousand fourteen was a strong year for 
TVA financially where we experienced 4 percent more sales to 
local power companies and our highest net income since 2010. We 
managed to reduce our debt by more than $1 billion and are well 
below our $30 billion statutory debt cap. We achieved this 
while still funding billions of dollars of investments in our 
infrastructure.
    We reduced costs by more than $300 million, which puts us 
well on our way toward a multiyear effort of $500 million in 
cost reductions. In 2014, TVA made its final scheduled payment 
to the U.S. Treasury on Congress' original investment to build 
the power system at TVA. So we have completely repaid the $1 
billion of investment in the power system, plus interest for a 
total of $3.6 billion.
    Our nuclear fleet is expanding and its performance is 
improving. All six of our nuclear units are in normal 
regulatory oversight with the NRC, and at our Watts Bar 
facility, we are 97 percent complete with the last reactor 
there. It is being finished the right way with safety and high 
quality. Once operational, this unit will supply 1,150 
megawatts of safe, affordable, and carbon-free power to our 
customers.
    In addition to nuclear capacity expansion, we are also 
investing in other key generating sources to ensure balance 
across our fleet. We are installing emission control equipment 
at two TVA fossil plants and constructing two plants that will 
be powered by natural gas. Our coal ash remediation work at 
Kingston where a major spill occurred in 2008 is nearly 
complete. The site has been returned to prespill conditions, 
and the area has been upgraded with many public conveniences. 
We are also investing roughly $2 billion to convert all of our 
coal ash storage from wet to dry systems.
    The administration's fiscal year 2014 budget called for a 
strategic review of options for addressing TVA's financial 
situation, including the possible divestiture of TVA. So we are 
pleased the administration has concluded that review and 
acknowledged TVA's efforts to improve its operational and 
financial performance and our commitment to live within our 
capital financing requirements. As part of that review, Lazard 
Freres, an independent banking firm, did a strategic assessment 
report which concluded that allowing TVA the opportunity to 
follow its plan of operational improvement and sustainable 
financial path would be the best interest of people in the 
valley and of the American taxpayers. And in my view, that 
report validated the worth of what TVA employees do every day.
    Our preliminary budget for fiscal year 2016 reflects slight 
load growth for the TVA region. We project revenues of $10.9 
billion from the sale of electricity, operating expenses of 
$8.9 billion, which is a reduction of almost $600 million 
compared to 2014 operational expenses, and capital expenses of 
$2.3 billion.
    Our capital expenditures include about $250 million for 
clean air projects and about $1 billion for new generating 
capacity. Our statutory debt is estimated to be slightly below 
$25 billion, and outstanding debt and debt-like obligations 
estimated to be just slightly below $27 billion at the end of 
2016.
    We see a slight uptick in our debt level this year, but we 
have a 10-year plan to reduce that debt level down to about $21 
billion. So in conclusion, as I traveled throughout the region, 
I have become a little more enlightened about the people who 
rely on TVA every day. The job we do each and every day to keep 
rates low, manage debt, maintain our assets, and be good 
stewards of what we have been given, is extremely important to 
the people of that region. So I thank you for the opportunity 
to be here, and I will be delighted to answer any questions.
    Mr. Gibbs. Thank you. And I will start off the questions. 
Secretary Darcy, the budget is really about setting priorities, 
and I am really concerned about the President's budget calling 
for a $750 million reduction in what we actually spent in 
fiscal year 2015. Can you explain why the President isn't 
putting as much importance on Civil Works projects as Congress 
is?
    Ms. Darcy. Mr. Chairman, the budget that has been presented 
today, the $4.7 billion for the President is what throughout 
our Government we believe we can afford within the programs for 
the Army Corps of Engineers and our water resources.
    Mr. Gibbs. Why does the administration also propose 
spending less than what is collected--now half of what is 
collected in the Harbor Maintenance Trust Fund than the full 
amount?
    Ms. Darcy. The $950 million that is in the President's 
budget this year is the same request that the President made 
last year, and that is again within the competing needs within 
our budget and that is what we believe is affordable at this 
time.
    Mr. Gibbs. As you are aware of what we did in WRRDA, we are 
trying to increase that at least 2 percent a year with expected 
growth of the Harbor Maintenance Trust Fund collections, and I 
really don't think the administration is putting enough 
priority in that, especially when you look at what has happened 
in our harbors and with the Panama Canal coming into operation 
next year.
    Coastal Corps projects, let's see, we have the budget 
request, $81 million from construction of seven of the coastal 
navigation projects funded in this budget; how many of those 
projects will be completed by next year or in 2016?
    Ms. Darcy. The overall construction completions, I think, 
are nine. As far as the coastal ones individually, I will have 
to check, and I will----
    Mr. Gibbs. Can you give us a list of those projects?
    Ms. Darcy. Yes, absolutely.
    Mr. Gibbs. Make sure we have that.
    [The information follows:]

        There are two coastal navigation construction projects funded 
        to completion in the FY16 Budget and there are two coastal 
        dredged material placement sites completed as well:

            Port Lions Harbor (Deepening and Breakwater), AK
            Grays Harbor (38-Foot Deepening), WA

            Charleston Harbor, SC (Dredged Material Placement Site)
            GIWW, Chocolate Bayou, TX (Dredged Material Placement Site)

    Mr. Gibbs. I am very concerned about what is happening, 
especially our gulf and east coast ports, getting the dredge 
depth amounts so we can take those new Panama ships fully 
loaded and offload them. To the best of your knowledge, the 
Nation's 10 largest ports, how many of those are authorized to 
mention today?
    Ms. Darcy. Is the question how many of those 10 are----
    Mr. Gibbs. Of our 10 top ports.
    Ms. Darcy. Are dredged to their authorized width depth?
    Mr. Gibbs. Yes.
    Ms. Darcy. Of the 10, I believe--I don't know, General. Do 
you----
    Mr. Gibbs. I think it is two, but I am just guessing. 
General?
    General Bostick. I was just going to say, at this point 
there should be about three on the east coast and three on the 
west coast that can handle the 50-foot depths, so New York, New 
Jersey; we are going to be at the depth in Miami here at the 
end of the June, July timeframe, and--and I believe it is 
Norfolk is the third one on the east coast and then there is 
L.A.
    Mr. Gibbs. Yeah, those aren't deepwater ports out there 
anyway, so it doesn't really matter. The ports, especially in 
the gulf and east coast, additional ports by the end of 2016, 
how many do you think will be there? You mentioned Miami will 
be, you mentioned Norfolk and New York are already there.
    General Bostick. Right, those are the three, and then we 
are focused on the we-can't-wait ports.
    Mr. Gibbs. Pardon? Pardon?
    General Bostick. Then we are focused on the five we-can't-
wait ports. Miami is one of them, and they are all in different 
stages of development. They won't be ready by 2016. The only 
one----
    Mr. Gibbs. Or end of 2016; 2017, for that matter. Do you 
have any idea?
    General Bostick. I can't tell you exactly which ones will 
be ready. I think we can walk through each one of the projects 
and tell you their status, but----
    Mr. Gibbs. I have a followup question to that because I am 
really emphasizing what is happening at the Panama Canal. We 
have the three you mentioned on the east side of the United 
States, and if the Harbor Maintenance Trust Fund, if more of 
that was expended, do you know, would that push it up to close 
to 70 percent of the revenue going for that? Would that help 
get those other ports up to speed by 2017 or not? Secretary?
    Ms. Darcy. The ports that have requested or are going 
deeper, the deepening project is not a harbor maintenance 
operation and maintenance function. It is a different budgeting 
construction authority.
    Mr. Gibbs. OK. I see the administration recommends the 
Secretary of the Army be authorized to impose a $1 billion fee 
or tax over 10 years on commercial operators for the inland 
waterway system. I guess how would you plan to collect that 
tax, and would this have to establish a new bureaucracy for 
this collection? This is a new tax that has been proposed by 
the administration, I believe.
    Ms. Darcy. Yes, sir. It is a user fee for the barges on the 
inland waterway system on the 27 reaches of the system that 
would be collected. We are still trying to work with the users 
and others to develop what exactly the fee structure would be, 
but it is anticipated that if this is enacted, that it would be 
able to collect $1 billion in over 10 years.
    Mr. Gibbs. I want to be clear on this. I think the proposal 
is not what we did last Congress that increased the diesel user 
fee----
    Ms. Darcy. Correct.
    Mr. Gibbs [continuing]. Just 6 cents. I think this is an 
additional.
    Ms. Darcy. That is correct. This would be in addition to 
the tax that was increased in the ABLE Act from 20 cents to 29 
cents. This user fee would be in addition to the increase in 
the diesel tax.
    Mr. Gibbs. OK. I will probably follow up on that later. I 
am out of time right now. I will turn it over to Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. Secretary Darcy, 
the section 1046 of WRRDA, very important to our Western 
States, required the investigation of how you can modify your 
operations and work with local agencies in improving the water 
supply opportunities at our dams. And can you give us the 
status of the implementation of that section, and what are the 
Corps doing to help the Western States, along with the water 
agencies, respond to the heavy drought we are now facing?
    Ms. Darcy. That implementation guidance is still underway. 
It is not completed as yet, but some of the things that the 
Corps is doing in order to help in some of the drought-stricken 
areas in the West includes responding to deviation requests. We 
have done that in three places in California: Coyote, Whittier 
Narrows and Prado Dam. What that means is we have had a request 
to deviate from our usual operating control manual in order to 
respond to drought conditions. These have drought contingency 
plans, these reservoirs, so with a deviation request, we would 
look to moving off of our usual controls to respond to the 
drought.
    Mrs. Napolitano. Well, that kind of lends into the fact 
that both Whittier and Prado are giving funds to the Corps from 
outside agencies to be able to spread that. Would that help 
other agencies if they were able to help by providing some 
funding?
    Ms. Darcy. I can't say for certain, but I would assume that 
it would help.
    Mrs. Napolitano. That is something we might want to look 
at. And Ms. Darcy, you know, I have been for years looking at 
the equity of the Harbor Maintenance Trust Fund, and for the 
ports that are very heavy users, L.A. and Long Beach, we 
continue to pay $220 million and they receive approximately $1 
million a year in return. This has been an ongoing issue, a 
debate on this, and of course, WRRDA, section 2102, provided a 
little more equity to donor ports with expanded use options. Is 
the administration committed to implementing the funds for 
distribution as spelled out in WRRDA?
    Ms. Darcy. The administration has allocated some funds in 
the 2015 workplan and the 2016 budget and in line with several 
of the provisions of 2014 WRRDA, for example, Emerging Harbors 
and Great Lakes each received 12 percent from the Harbor 
Maintenance Trust Fund. Emerging Harbors received 10 percent 
from the Harbor Maintenance Trust Fund in the 2016 budget 
proposal.
    Mrs. Napolitano. OK. But in the distribution to the L.A. 
and Long Beach, they sort of kind of expected about $1.7 
million and they received zero?
    Ms. Darcy. That is correct. In the competition within the 
Harbor Maintenance Trust Fund for which ports are in most need 
of the resources, it didn't compete as well as some of the 
other ports.
    Mrs. Napolitano. Well, I thought the idea was to have 
parity in the donors from the donor ports rather than 
competition for prioritization?
    Ms. Darcy. The way we budget for the Harbor Maintenance 
Trust Fund is that we look at what needs there are for dredging 
in particular ports, and the needed dredging in L.A., Long 
Beach was not as----
    Mrs. Napolitano. So then WRRDA would not apply. The law 
does not apply.
    Ms. Darcy. Congresswoman, the law gives guidance to us as 
to how to budget through the Harbor Maintenance Trust Fund, and 
through the Harbor Maintenance Trust Fund we do budget on a 
performance-based need, and what harbors are in most need of 
those resources.
    Mrs. Napolitano. OK. Well, we certainly would love to be 
able to have a better equity in this because as the ports need, 
those two ports, which are some of the major ports in the U.S., 
some assistance to be able to use the expanded use option, then 
I would hope that we continue to look at it, and I don't see 
anything in the budget.
    The other question I have, Secretary, is can you speak to 
the successes of the Veterans Curation Program? I understand 
you have helped at least 200. What skills do they learn? And of 
course, in the 111th Congress, the House passed by a voice vote 
H.R. 5282 to provide funds to support the program. Could 
similar legislation be able to be implemented to help our 
veterans?
    Ms. Darcy. I am not familiar with the particulars of that 
legislation, Congresswoman, but this program we started in 
2009, our Veterans Curation Program, is in response to two 
needs: the needs for our veterans to have some tangible skills 
when they return that they can market in the job market, and 
also a need for the Army Corps of Engineers to catalog our 
archeological finds. It is a responsibility that we have 
whenever we do a project. And we have had more than 200 
veterans trained through our programs.
    We have a program in St. Louis, Missouri, one in Augusta, 
Georgia, and one in Arlington, Virginia. And the skills that 
they learn range from digitization, to photography skills, 
cataloging skills, and I am very proud to report that about 89 
percent of those who have been trained have gone on to either 
advanced degrees in college or jobs either in the private 
sector or in the Federal Government.
    Mrs. Napolitano. OK. Thank you. The bill, of course, was a 
straight authorization, $5 million annually. It did not pass in 
the Senate. It did not get heard. So we hope maybe we can 
revive that and be able to help not only our veterans but the 
Corps.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Gibbs. Mr. Webster, you have 5 minutes.
    Mr. Webster. Thank you, Mr. Chairman.
    Ms. Darcy, the C-111 south Miami-Dade project is crucial 
for providing water supply for the Everglades National Park and 
for south Miami-Dade County. One of the remaining two 
construction contracts is Contract 8, which is a detention area 
for south--connecting the south Miami-Dade project to the 
modified water deliveries to the Everglades National Park. Can 
you provide a status of Contract 8?
    Ms. Darcy. Right this moment, I don't know the status, but 
I can find out for you, sir. I don't know if the General knows, 
but I know that we are moving forward on C-111, but I am not 
sure of the Contract 8 status.
    General Bostick. I don't have the status immediately 
available, but we can track that down and provide it to you 
today.
    Mr. Webster. Awesome. I would like to get that.
    [The information follows:]

        This contract is currently being scheduled to be awarded later 
        this summer in the July timeframe.

    Mr. Webster. General Bostick, first of all, thank you for 
your service to our country. In February this year, the Corps 
offered guidance on the implementation of section 1023 of the 
WRRDA Act. There was a provision in there, that part of that 
section 1023 was something I really supported in the conference 
report. Can you give me a status on the update of section 1023 
and are there sponsors who are taking advantage of those 
provisions to deliver projects?
    General Bostick. We have completed the implementation 
guidance on 1023, which is the additional contributions by non-
Federal interests. I can't give you a status on whether folks 
have taken advantage of that, but we have provided the 
implementation guidance to the field on that particular part of 
the law.
    Mr. Webster. OK. Well, I have a--I have another question, 
would be specific to 1023. Maybe I can just get with you later 
and we can find out a little bit more about that, what has 
happened with it and maybe even a specific example that has to 
do with the Port of Tampa in Florida, and maybe you could help 
me with that, too.
    General Bostick. We would be happy to follow up with you.
    Mr. Webster. Thank you so much.
    Yield back, Mr. Chairman.
    Mr. Gibbs. Ms. Frankel. There she is.
    Ms. Frankel. I am here. Thank you. Thank you very much, Mr. 
Chair, and I know that Mr. Webster agrees with me and would 
join me in telling you how important the marine industry is to 
Florida, as I am sure you know. It is probably over $600 
billion impact to our economy with hundreds of thousands of 
jobs, so I join with my colleagues in wanting to have more 
resources for your agency.
    And I wanted to say, I sat in at a Civil Works Review Board 
process a couple--I think a couple of months ago, and I would 
really recommend anybody on this committee to go and see how 
professional and thorough and thoughtful the Army Corps is and 
you will understand why it takes so long to get through these 
feasibility studies.
    One of the things that we did last year on WRRDA was to 
allow a non-Federal sponsor to prefund the planning and design 
and construction phase of our project without congressional 
authorization but after they got their Chief's Report and then 
later see credit or reimbursement.
    Secretary Darcy, can you--I know that you are working on 
some guidance, thoughts. Where is the Army Corps in that?
    Ms. Darcy. I think that the 1023 guidance that Congressman 
Webster referred to is the same guidance that you are referring 
to, which is additional contributions by non-Federal interests. 
And as the Chief said, we have some requests for that because 
it depends on whether you use contributed funds. And what we 
can do is give you a status report of what kinds of requests we 
have had since the passage of that law.
    Ms. Frankel. But are you--are you putting through--are you 
going to issue some rules or are you just doing it on a case-
by-case basis?
    Ms. Darcy. The guidance is nationwide guidance for how you 
would implement the provision, but then we have to make a case-
by-case decision once the request comes into the district about 
how the local sponsor would want to contribute funds to that 
project.
    Ms. Frankel. In regards to Port Everglades, one of my 
favorite subjects--well, we have been waiting 18 years for our 
Chief's Report, but we are making progress. Thank you very 
much. No really, we have made very, very good progress, and I 
want to thank you for that.
    One of the issues that was raised at the Civil Works Review 
Board was the outstanding EPA permit for the dredge material 
disposal site, and I was just wondering if you have an update 
on that and whether or not, not having the EPA permit would 
prevent the county from moving forward on the preconstruction 
engineering and design phase.
    Ms. Darcy. Congresswoman, I don't know the status of the 
EPA permit, but I will check on it for you. I'm aware you went 
to the Civil Works Review Board. I think we are on target to 
hopefully get this Chief's Report completed in May.
    Ms. Frankel. OK. That is terrific. And let's see, I have a 
little bit more time to continue. I want to talk about Broward 
County and the Segment II Shore Protection Project. Beaches and 
beach restoration is so important to Florida's economy. Over 
$50 billion in economic impact, 450,000 jobs just--protects our 
shorelines, obviously, for tourism, so making sure that we have 
sand on the beaches is a major priority. We have been having a 
problem trying to--with the construction of a Shore Protection 
Project in an area called Segment II which encompasses Fort 
Lauderdale north of--to Pompano Beach, which is a federally 
authorized project, and I am just wondering if you could--if 
you are able to give me an update, because it is very critical 
that the county begin to restore its beach in November of 2015 
because we have to--we want to get it done before tourism 
season, and we also have to coordinate with the turtle nesting.
    Ms. Darcy. Congresswoman, I think this is the project you 
are referring to, the Shore Protection Project in Broward 
County. The sponsor has prepared what is called a limited 
reevaluation report, and we are expecting that approval by the 
end of May, that is the approval needed in order to go forward 
with that.
    Ms. Frankel. OK. This May?
    Ms. Darcy. May 15, 2015, yes.
    Ms. Frankel. All right well will that--OK. We will take 
that.
    General Bostick. Right. And that would be the decision 
document for the execution of the partnership agreement for 
this second segment that you asked about.
    Ms. Frankel. All right. Thank you very much.
    Mr. Gibbs. Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Ms. Darcy, the folks that I represent are following two 
Federal actions that could have significant impact on flood 
control projects and the flood plain in my district. Can you 
tell us what impact you perceive from the proposed Clean Water 
Act rule and the new Federal flood risk management standard on 
the Lower San Joaquin River Feasibility Study that is now in 
its final stages?
    Ms. Darcy. Congressman, I don't believe either of those two 
actions would have an impact on the ongoing study. I understand 
that the study is looking at different reaches within the 
project area, and I don't believe that either of those would 
have an adverse impact on that study. I would be happy to 
follow up in particular for that study. But right now, I don't 
believe it would have an impact.
    Mr. Denham. Thank you. I would look forward to that 
followup.
    [The information follows:]

        While we do not believe that the Federal Flood Risk Management 
        Standards (FFRMS) will affect the study, the FFRMS is out for 
        public comment and the final standards, and how they might 
        impact RD17/French Camp and Lower San Joaquin River Feasibility 
        Study must be informed by that process.

    Mr. Denham. These actions call for all waters in the flood 
plain to be jurisdictional and allow Federal agencies to have 
varying interpretations of where the flood plain is, possibly 
far greater than a 100-year flood plain identified by FEMA. How 
does this affect the Corps' planning for flood projects in the 
additional water subject for 404 permits?
    Ms. Darcy. Currently in our project planning process, we 
look at the entire footprint of a proposed project which would 
include where it is in the flood plain and whether or not it 
would go forward as--and in response to the impacts that 
building a project in the flood plain would have. As far as the 
404 jurisdiction, we make a determination on whether waters are 
jurisdictional when we have a request for a 404 permit, so we 
would have to look at what the project request was and whether 
or not where that project is being proposed would be in the 
flood plain or whether it would be impacting jurisdictional 
waters.
    Mr. Denham. I would like to follow up with you on that 
because I have a specific concern, especially for French Camp, 
a new VA facility that we are looking at putting in in that 
very----
    Ms. Darcy. That footprint.
    Mr. Denham [continuing]. Footprint, yes. One other thing. 
Can you describe the role that the Corps played in the 
development of the new Executive Order 13690 regarding flood 
plains and the new flood risk management standard?
    Ms. Darcy. The Corps of Engineers is a member of what is 
called MitFLG, which is the mitigation organization within the 
Federal Government, so along with FEMA and other Federal 
agencies, we were involved in the development of that rule, of 
that regulation.
    Mr. Denham. Thank you. I have no further questions, but I 
would like to follow up with you on this project in particular 
because there does seem to be some, I would say, confusion. I 
think the Corps probably would define it differently, but 
certainly there is one area that is covered under the Corps and 
another area that we are going to cease development in even 
though it is in the Corps' jurisdiction, and French Camp, which 
is a project that I have been championing for quite some time 
along with Congressman McNerney, and our concern is that it is 
in that area, so I look forward to following up with you. I 
yield back.
    Mr. Gibbs. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Secretary Darcy and General Bostick, thank you for all that 
you are doing for all of us. I particularly want to express my 
appreciation for the willingness of the Corps to deal with some 
very complex issues on the Sacramento River system. You have 
dealt with very difficult problems that have occurred on the 
Feather River. Colonel Farrell and your team have been 
extraordinarily flexible and innovative in dealing with Native 
American archeological sites, very tough, very difficult issue, 
but it has been resolved, and I thank you for that. That allows 
the 40-mile stretch of the Feather River West Levee to be--for 
the project to continue, and I thank you for that.
    Also, the Hamilton City, Natomas, American River, Delta 
levees, Yuba River, and even the channels, you are moving 
forward with all of those, and I appreciate it. Your team in 
California, both in the San Francisco and the Sacramento 
district are very engaged and doing some really good work for 
all of us.
    On the budgeting side, we have got work to do here. The 
Harbor Maintenance Fund has come up. As a ranking member of the 
Subcommittee on Coast Guard and Maritime Transportation, this 
is of great interest. The problem is not yours. The problem is 
ours. We are the ones who set the pace here. You simply have to 
follow the pace of funding.
    And so when we don't provide in law that 100 percent of the 
funds will be spent and then we allocate and then you follow 
along with that, so I would say that the problem lies with us 
as we take up the Coast Guard bill in the next couple of weeks. 
Perhaps we will give you instructions to spend the money where 
it was meant to be spent. We will see what happens, whether we 
are willing to do that. Same way within the waterways. It is 
really our problem, and you are left to follow the lead that we 
set out.
    I think the question of consultation has come up several 
times. It is of great concern in our area. I don't think we 
need to go into it again here unless you would like to tell us 
all the good work you are trying to do on changing the way in 
which we consult, start projects early and the rest, so perhaps 
you would like to pick that up again, and I will leave that to 
the two of you if you want to comment further on how that 
program is working on consultations, and particularly listening 
sessions are good, but they have got to go into more depth than 
that, so can you explain how you are going to further consult 
indepth?
    Ms. Darcy. Are you referring to consultations on ESA?
    Mr. Garamendi. Yes.
    Ms. Darcy. Under the law we have to consult with our 
resource agencies, whether it is Fish and Wildlife Service or 
NOAA on any projects going forward that would be a Federal 
action that would impact the new species.
    Mr. Garamendi. I am sorry. I missed--we are really not 
communicating here. I am talking about stakeholders, the local 
stakeholders and consultation with the local stakeholders.
    General Bostick. As we came out of Katrina, one of the 
things we spent a lot of time on is deeper risk analysis and 
also stakeholder involvement, and in coming out of Sandy, the 
whole idea of resilience and resilient communities, resilient 
watershed, resilient coast lines, resilient communities. And 
resilience, you have to ask the question, resilient for what? 
And the people that best answer that are your stakeholders. 
There are limited funds that are available. There are different 
scenarios that you can plan for. None of them are completely 
predictable, so it is really up to the stakeholders to be part 
of that dialogue in terms of how we go forward, and we are 
really working that piece very, very hard now.
    Mr. Garamendi. OK. The other piece of it is the cost-
sharing partners, the local cost-sharing partners that were 
discussed by my colleagues here, to start projects early and 
the like. I would really urge you to engage deeply with those 
partners early in the project and on the consultation and 
really the guidelines that you need to put out.
    You don't need to comment on that, but I do want to thank 
you. Your team has done a terrific job in the Sacramento Valley 
region, and it is much appropriated. All of the issues, complex 
as they are, more to come, we look forward to working with you, 
and it is our burden to make sure you have the money that you 
can fully employ to protect from floods, other hazards, and the 
like.
    With that, Mr. Chairman, I will yield back my remaining 26 
seconds.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman, and thank you, 
Secretary Darcy, General Bostick, Mr. Johnson. I am a little 
bit dismayed to hear that I won't be able to question General 
Peabody anymore. Well, congratulations on your retirement. I 
feel bad you are not at the table today. You maybe want to pull 
up a chair?
    Mr. Peabody. No, thank you, sir.
    Mr. Davis. OK. Well, congratulations. Thank you for your 
service. We wish you well in your retirement and hope you are 
not a stranger to many of us who have gotten to work with you 
and respect the job that you have done greatly, so thank you.
    Secretary Darcy, I thought I was going to be somebody who 
brought up an issue that, you know, would be new to the 
committee discussion, and both you and General Bostick and some 
of my colleagues already beat me to the punch. I want to talk 
about the Veterans Curation Program. I actually went to the St. 
Louis district office and met with those who were actually 
implementing that program. It is a phenomenal success. It is 
one that I am proud to represent many of those employees who 
work at the St. Louis district right across the river in my 
district in Illinois, and I wanted to tout the successes of the 
program and many already have. But what I saw on the ground in 
St. Louis was veterans who were learning valuable skills 
because of what the Corps of Engineers is tasked to do with 
archeological findings and recordkeeping. It is a match that 
just works, and I want to commend you and General Bostick and 
the entire Corps of Engineers for making that program such a 
success, and whatever we can do to be helpful to continue to 
tout its successes, I will continue to do here.
    Do you have any other comments on that program, either of 
you, that you might want to make?
    Ms. Darcy. I would just like to say that, yes, it has been 
successful and hopefully we are going to be able to expand it 
maybe to some other centers as well as the numbers of veterans 
that we are able to reach. I just can't talk about it without 
talking about Sonny Trimble. It was his brain child, and, after 
coming back from Afghanistan, he realized that there was a 
match here to be made with our veterans needing skilled 
training as well as what he was tasked with to do, because he 
is our curation director for the Corps.
    Mr. Davis. Yeah.
    General Bostick. In a previous life, I was the G1 of the 
Army, head of personnel, and I was really surprised to learn 
that in 2001, unemployment compensation for the Army was $90 
million. And then in 2012 it was a half a billion dollars. So 
many of our soldiers that have served their country are going 
out and don't have the opportunity for work, and as we try to 
solve that at a national level, it is really individual small 
businesses and organizations and big businesses that have to 
take on some of that responsibility.
    So, the Corps is not going to solve this alone, obviously, 
but thanks to Secretary Darcy's leadership and the rest of the 
team working on trying to help veterans, in our small way, we 
are putting a dent in that challenge that our veterans and 
their families face. Thank you. Thank you for visiting.
    Mr. Davis. Well, thank you both. I was with Sonny. He is an 
inspiration, somebody who recognized a need, and it is often 
many of us on both sides of the aisle sit in these committee 
rooms and we talk about what the bureaucracy doesn't do well. 
We talk about a lack of innovation and a lack of doing what is 
best to create opportunities, especially for our heroes who are 
returning from the battlefield. But what this program has shown 
me is that the Corps of Engineers has shown an innovative 
approach, and it is truly helping veterans in a temporary basis 
to learn those skills and then move on to true careers. And I 
want to thank you again for making that such a success. I am 
here to talk to anybody who may criticize that program. I stand 
ready to be helpful in that.
    And because I don't have much time left to ask my second 
question, I will wait for the second round; and I will yield 
back the balance of my time.
    Mr. Gibbs. Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. And my thanks to the 
witnesses as well. Secretary Darcy, I would like to ask you and 
General Bostick, if he feels the need to join in, to talk with 
me about water in the arid West. I don't need to tell you how 
bad the drought is in California, but obviously you are a key 
agency when it comes to managing our scarce water resources. 
You have got lots of multipurpose projects that provide both 
flood control and water supply benefits.
    And one of the things that I have been working on with you 
and with some of my local stakeholders is modernizing the Corps 
of Engineers' operating manual and rule curves, which are based 
on historic hydrology and do not yet incorporate modern weather 
science, satellite data, things that have come into play long 
after those manuals were put together back in the 1950s. So I 
am really heartened that you are participating in a pilot 
project with the National Weather Service and the Sonoma County 
Water Agency to see if there are opportunities where the 
weather data is reliable enough that you can begin considering 
it when you decide when to release water from these reservoirs.
    We may not yet be at a point where we can tell you exactly 
how much water is going to come from a storm, but I think you 
are going to find that we are at a point that when there is no 
storm at all and we know no rain is coming, we know that with a 
lot of certainty because we have satellites and weather data 
that we want you to consider and we think should absolutely be 
part of your decisionmaking process. And toward that end, last 
year in WRRDA, the Corps was instructed to submit a report 
within a year on how they could make changes to reservoir 
operations in arid regions to improve water supply during 
droughts. I think that this kind of modern forecast-based 
reservoir operations would be a perfect fit, but I want to just 
ask you if you are on track to complete that report?
    Ms. Darcy. I believe so, but I am going to check in the 
next 10 minutes to make sure I am right.
    Mr. Huffman. OK. Terrific. Well again, it is critically 
important. It is also important that we seize opportunities to 
do water reuse and recycling wherever we can. I think that is 
what Congress had in mind in the last WRRDA when the Corps was 
instructed to develop new guidelines under section 1014, on how 
non-Federal interests can do water resource development 
projects and then later seek reimbursement from the Corps. We 
want these projects to move forward.
    And I know that a couple months ago in an Appropriations 
subcommittee, Representative Roybal-Allard asked you 
specifically whether environmental infrastructure projects like 
water recycling would be eligible. And she got a favorable 
response at that time. Unfortunately, I sent a letter seeking 
clarity on that and on April 20, got a letter from you saying, 
no, environmental infrastructure projects would not be 
eligible. And so I am just hoping that you continue as you 
develop the new guidelines for section 1014 that we asked you 
to do, that you continue to have an open mind about the 
critical role that water reuse and recycling is going to have 
to play to get us through this critical drought in the West and 
the opportunity that we have for the Corps of Engineers to help 
us stretch our water supplies. I hope you will reconsider the 
position that you outlined in that letter of April the 20th. Do 
you want to comment on that?
    Ms. Darcy. Yes, Congressman. Environmental infrastructure 
is not within the core missions, but I understand that 
recycling and reuse are and continue to be a growing need, 
especially in the West, and I can tell you that I will take 
another look at it. However, as I said, environmental 
infrastructure, which wastewater and these kinds of projects 
are considered, are not within the Corps main missions.
    Mr. Huffman. In the limited time I have left I want to ask 
you about section 1135, Continuing Authorities Program 
projects. We have a very important one in Sonoma County. These 
are projects that look to modernize, modify and improve 
existing Corps projects to improve their environmental 
performance. But, that environmental performance can also be 
critical to water supply reliability as it is in the case of 
Sonoma County Water Agency Project on the Russian River. 
Compliance with the biological opinion for salmon through that 
project is going to be key to long-term water supply 
reliability. The Corps continues to request much less funding 
for this program than is needed to address the critical backlog 
and to keep these projects moving. Can you speak to why the 
administration is underfunding this program year after year?
    Ms. Darcy. Congressman, in this year's budget I believe we 
requested $3.5 million for all of our Continuing Authorities 
Programs. One of the reasons is because we had a great deal of 
carryover in that account. We had over $100 million carryover 
from the year before, which is why we didn't request as much as 
maybe we had in years past. Also some of the challenges we have 
in some of the CAP programs is that our local sponsors 
oftentimes are unable to meet the cost share match, and so we 
are trying to figure out a way forward within our CAP program. 
The CAP authority is one that is used a lot because of the low 
dollar, not only the low dollar amount but the fact that it 
does not require the extensive authorization process. So we are 
trying to get a handle on how we can spend down the carryover 
as well as how we can improve how we communicate with our 
stakeholders to be able to help them come up with their portion 
of a cost-shared responsibility.
    Mr. Huffman. Thank you, Mr. Chairman. I yield back.
    Mr. Gibbs. Mr. Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today and availing themselves to us. 
My questions are going to be directed to the Corps. But before 
I get into my questions, I want to give a little shout out to a 
good man that you have in your ranks, our new commander of the 
Wilmington district, Colonel Kevin Landers. I had the 
opportunity to meet and visit with him. And he is new on the 
block. I am new on the block, and so I look forward to forging 
a very good working relationship not only with him but with you 
all for a long time to come.
    I have some specific questions as it relates to some 
beaches near and dear to my district and near and dear to my 
heart. You may not have the specific answer right at hand, but 
I want to get these in for the record. The first pertains to 
Wrightsville Beach which is in New Hanover County, right there 
on the coast obviously. And the question, a couple questions, 
one is how many additional periodic nourishment cycles could be 
completed without exceeding the section 902 maximum project 
cost limit for the Wrightsville Beach Project? And then the 
second question is what is the status of the Corps developing a 
Post-Authorization Change Report to seek an increase in the 
project's authorized total cost in section 902 cost limit?
    Ms. Darcy. I can give you those answers. On how many 
additional periodic renourishment cycles, this is for 
Wrightsville Beach, right, not Carolina?
    Mr. Rouzer. That is correct.
    Ms. Darcy. For Wrightsville Beach we project that at least 
two periodic nourishment cycles scheduled for 2018 and 2022 
could be completed without exceeding the section 902 cost 
limit. And then regarding what is the status of our developing 
a 902 cost limit, the Corps is analyzing all cost-reduction 
measures to reduce the total cost of implementing this project, 
and subject to the overall viability of implementing these cost 
controls, a Post-Authorization Change Report may still be 
required, and this possibly could be accomplished in fiscal 
year 2016, subject to availability and appropriations.
    Mr. Rouzer. Well thank you for those answers. I look 
forward to working with you on that specific issue.
    The next set of questions relates to Carolina Beach and 
what is known as the Carolina Beach and Vicinity Project. Do 
you know when the Federal participation and periodic 
nourishment of the Carolina Beach portion of the Carolina Beach 
and Vicinity Project currently will expire?
    General Bostick. It expires fiscal year 2017, for the 
Carolina Beach portion, and for the area south, Kure Beach 
portion, it expires in 2047.
    Mr. Rouzer. Do you know what is needed to determine the 
feasibility of extending Federal participation in periodic 
nourishment of the Carolina Beach portion?
    General Bostick. Yes. We would have to conduct a study in 
accordance with WRRDA 2014. We would also need economic 
justification, and it would have to be environmentally 
acceptable. We are still working on the implementation guidance 
for this section of WRRDA, but if it were to be extended, it 
could be up to 15 years.
    Mr. Rouzer. Just so I am clear, what actions by the 
administration would be needed to initiate this? Or what 
encouragement does the administration need to initiate this?
    General Bostick. Assuming all of the previous items I 
talked about: economically justified, technically feasible, and 
environmentally acceptable, and the review of the 
implementation guidance to ensure we are straight with WRRDA 
2014, then we would need funding based on the study.
    Mr. Rouzer. How much funding do you anticipate that would 
be?
    General Bostick. That would be difficult to say at this 
point. We would really have to go through and execute this 
study, and the study would reveal the cost.
    Mr. Rouzer. OK. Thank you very much. One last followup to 
all of that is, what can we do to be helpful in your mission? I 
know you have got a tough job. Obviously money is a scarce 
commodity, a scarce resource that everybody needs, but is there 
anything in particular that we as a committee can do to help 
make your job easier?
    General Bostick. No. I would say we are getting great 
support from the committee and, I think, the administration, 
given the challenges that we face nationally; but as you look 
at our aging infrastructure around the country, we are 
maintaining about $190 billion worth of infrastructure. The 
American Society of Civil Engineers rates our infrastructure at 
a D-plus and says we need about $3.6 trillion by 2020, and we 
are probably going to be short about $1\1/2\ trillion.
    So the Federal Government can't do this alone. And I think 
as you work with your local stakeholders, and we work with the 
local stakeholders, it is going to take a team effort. Relying 
on the Federal Government on many of these projects alone will 
not suffice, and whether it is public-private partnerships and 
getting the private sector involved, getting local and State 
governments involved, to work in partnership with the Federal 
Government is going to have to be the way ahead.
    Mr. Rouzer. Thank very much, Mr. Chairman. Appreciate your 
answers.
    Mr. Gibbs. Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and Ranking Member, for having this very important meeting on 
the budget and the priorities of the Army Corps fiscal year 
2016 budget. I want to thank the witnesses also for being here. 
I am grateful for the hard work and service to the country that 
the Army Corps of Engineers does. I know that they are at work 
day and night, building and maintaining our national 
infrastructure, completing projects that keep the safety and 
well-being of Americans all over the U.S. Having said that, I 
did want to bring to light a concern that I am sure the members 
of this committee have, and I apologize for being in another 
markup, another committee, so I have been in and out.
    But as of January 15, the Army Corps of Engineers had an 
unallocated sum of approximately $100 million specifically 
apportioned for flood risk management programs as part of the 
fiscal year 2015 workplan. As of January the 15th, the Corps 
was directed by the Congress to allocate such funds within a 
45-day period, to expedite the transfer of management and 
operation of flood risk management projects such as the Dallas 
Floodway Project in my district.
    Just yesterday my staff informed me that the city is poised 
to take in serious consideration, matching a Federal investment 
of $8 million with $7 million in municipal bonds to complete 
the Dallas Floodway Project that will add recreational 
features, community amenities, and flood control between the 
levees--amenities between the levees and flood control, as well 
as provide money to repair severe erosion in the floodway. Now 
Secretary Darcy, I understand that you were just completing an 
international trip, so I want to especially thank you for 
taking time to join us today, and I want to inquire about two 
separate items.
    Can you explain why the Army Corps has not yet complied 
with the congressional directive to allocate the existing $100 
million from fiscal year 2015 workplans, specifically a portion 
for expediting flood risk management, and projects and their 
eventual transfer of operation to non-Federal entities? And I 
want to thank you for the feasibility study and the 
environmental impact statement on the modified Dallas Floodway 
Project signed yesterday. But having said all that, I would 
like also to ask if you intend to move forward with approving 
the record of decisionmaking related to the Dallas Floodway 
Project as well as moving forward with the recommendation to 
allocate the $8 million for said project.
    And I would like for you to speak to these two things that 
are very central to my area and certainly urge some movement in 
the affirmative in some way. So let me allow you to comment.
    Ms. Darcy. Yes, Congresswoman, I believe that yesterday 
when I signed the memorandum, the record of decision has now 
been completed, and then the project can move forward. As far 
as the allocation of the unallocated balances in the 2015 
workplan for flood risk management, we will have a decision on 
those in shortly; and I understand that the project, the $8 
million that you are referring to in Dallas, that there is a 
requirement by the local sponsors that a decision needs to be 
made before the 28th of April, and I will commit to you that I 
will make that decision by then.
    Ms. Johnson of Texas. Thank you, Secretary. And for those 
others with the Corps of Engineers, I look forward to 
continuing to work with you, and I look forward to having us 
have an opportunity to move forward with the projects.
    Thank you, and I yield back.
    Mr. Gibbs. Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, and thank you folks for 
being here this morning. I have a son who is a sophomore at 
Geneseo University in upstate New York who is in the Army ROTC 
program, and he just may be smart enough to get in the Army 
Corps of Engineers some day. I don't know. We will see. But I 
thank you for the work you have done. In my short time as a 
congressman I have had some experience already with the Army 
Corps, coming to my office, meeting with me. I found them to be 
incredibly professional and incredibly responsive, and I 
appreciate that. It came from the Buffalo sector, I believe, 
and so thank you very much for that.
    In my district there is a vastly underutilized port called 
the Port of Oswego. It is the first deepwater port, and I say 
deepwater with caution, deepwater port in the Great Lakes, and 
it is really just not utilized as well as it could be. And, in 
discussing with officials up there on a regular basis, one of 
the things they bemoan is how long it takes to get dredging 
approved through the Corps. So, I am not here to cast stones, 
but I just kind of want to understand the process if you can 
explain it to me. When a port needs dredging to get it back to 
the depths where it once was, for example, can you just explain 
how that process works and what is the average time it takes?
    Ms. Darcy. I can tell you that the port would need to have 
a national navigation port which would be how we would 
determine the dredging capabilities. And then, as some earlier 
comments stated about the Harbor Maintenance Trust Fund, it 
would have to compete within that trust fund balance as to what 
the funding could actually be for the eventual dredging of that 
project.
    Mr. Katko. OK. Do you have any idea from stem to stern, to 
borrow a ship phrase, how long it takes once someone applies 
generally before they get a response as to whether or not their 
request for dredging is going to be granted?
    Ms. Darcy. I don't know. Do you, General?
    General Bostick. My guess is part of this challenge, is it 
goes back to what Secretary Darcy was saying, in whether the 
project competes. There are many projects that folks request 
dredging, and year after year they are not competing for those 
small dollars that are available, so it really depends. I don't 
know the specifics on this port, but if it is a small port that 
is not competitive, then it could go for many years where it 
would get a response each year that it did not compete for 
funding that year.
    Mr. Katko. When you say a small port, assuming it is not 
competitive, what do you mean? There is not the commercial 
traffic to justify it, or is it something else?
    General Bostick. That is true. What we base it on is the 
amount of tonnage that it carries each year, that particular 
port. We have just under 1,000 ports, and 59 of the top ports 
carry about 90 percent of the tonnage, and they receive about 
60 to 65 percent, maybe sometimes 70 percent, of the funding. 
About 10 percent of the funding goes to those low-use ports, 
low-tonnage ports, so there is still funding that goes there.
    Mr. Katko. Is there consideration given to the fact that if 
these ports were dredged, that it could increase the tonnage 
coming into those ports?
    General Bostick. One of the things that we are trying to 
look at is watersheds as a system. So looking at the Great 
Lakes for example, as a system instead of individual ports--and 
this is one of the things the Corps has been pushing--that 
there may be a port that doesn't compete well alone, but if it 
were funded, the entire system may produce more. We are trying 
to talk about that strategy as well.
    Mr. Katko. Yeah. I would urge you to do so because I know 
Oswego is one such port, and they have been having a lot of 
discussions, for example, with the New York-New Jersey Port 
Authority, and they are pretty much, as you probably know, at 
their maximum operating capacity, so there is overflow 
potential for these smaller ports that, you know, if they are 
dredged and they are able to take on some of the bigger ships. 
For example, Oswego we are hoping if they get a little more 
depth to the Port of Oswego, it might be able to take on more 
cargo container ships and then kind of married up with a major 
transfer point, CSX rail line in Syracuse, New York, which is 
about 45 minutes to its south.
    So, I would urge you going forward, to try and consider as 
part of the component of, you know, these requests that what is 
the economic potential if it is done. As I understand it, 
shipping is going to increase. Rail transportation is going to 
increase, and those two are intertwined, and the more we can 
take into consideration on the front end, we might be able to 
develop the economy more. But again, it is not a criticism. It 
is just a suggestion.
    And I want to thank you all. I think the Army Corps of 
Engineers does a great job, and the only thing I would ask is 
that, to the extent you can, find ways to expedite the 
decisionmaking process, I would very much appreciate that. 
Thank you.
    Mr. Gibbs. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I very much 
appreciate this hearing, and I appreciate the testimony I have 
heard so far from our witnesses.
    My first question is addressed to Secretary Darcy. 
Secretary Darcy, a particularly controversial issue in this 
committee and the Congress has been the Clean Water Act 
rulemaking. No matter what administration, what EPA, it would 
always be controversial when you consider how many rivers and 
streams of the United States are involved.
    The President has included $5 million to implement your 
Clean Water Act activities. Of course this committee last week 
passed a bill that would essentially require you to toss the 
whole thing and start all over again. If that bill were to ever 
pass, and I wonder if anyone ever thought it would pass, but 
assuming that bill were passed, and that is to say the House, 
and the Senate, and signed by the President, would the Army 
Corps need additional funds to carry out all of the 
requirements provided in that bill?
    Ms. Darcy. My understanding of the legislation you are 
referring to would require us to stop doing the current 
rulemaking and start over again, meaning I think additional 
consultation within the administration as well as with outside 
stakeholders. So, I would anticipate that if we were required 
to stop and start over again, we would probably need additional 
resources. The $5 million that was in the President's request 
for 2016 for the regulatory program is in anticipation of the 
rule that we had proposed going final, and that money would be 
used to train additional staff that would be needed in the 
initial startup to get up to speed on what the implementation 
of the new rule would----
    Ms. Norton. Do you have any idea how much in funds it has 
taken to get this far, with all the interruptions and all the 
consultations with all of the States that you have done?
    Ms. Darcy. I don't have a good number for you, 
Congresswoman, about how much we have expended in proposing the 
rule.
    Ms. Norton. But essentially we would be putting essentially 
the same resources. You would have to go to all the States and 
all the subjurisdictions all over again and essentially begin 
what has been very expensive rulemaking all over again. I just 
want that for the record. I don't assume this bill would be 
passed because I don't think there is any such thing as a 
controversial Clean Water Act bill on the waters of the United 
States.
    I would like, General Bostick, to ask you about perhaps one 
of your oldest projects and one that I must say I am grateful 
for the Army Corps for the way in which it has proceeded. 
During World War I there were chemical weapons that were 
manufactured in one of our neighborhoods. It was not then a 
neighborhood. But because all the information wasn't known, one 
of our most illustrious communities was built over that; and 
the Corps has pledged to make sure that that community is 
cleaned up and has proceeded forthwith.
    I have been briefed by your Baltimore district office about 
this so-called FUDS site, formally a defense site, at the 
American University, Spring Valley neighborhood, I think it was 
the end of February, to bring me up to date. And you have 
released an investigative report, that has been available for 
public comment. So we see that work is proceeding, and progress 
has been made; but, General Bostick, I don't know if you have 
ever had an older project than this, but we are talking we are 
going to come on 25 years if we keep this up. And the timeline 
I have been provided for one of the last projects, Glenwood 
Road, has a high probability of excavation to be completed 
2016, 2017, low probability excavation, winter 2017, spring 
2017; and site restoration, not until spring or summer 2017.
    I have to ask you, General Bostick, is there any way to 
speed up this timeline considering we are talking about a 
neighborhood where real people live and go to work every day 
and have had to abide this work for almost 25 years? Is there 
any way to speed up that deadline that would take us into 2017?
    General Bostick. Representative, I am glad our team was 
able to brief you. The numbers that you are tracking is exactly 
the way that I am tracking the progress. I know they are 
working as hard and as diligently and as safely as they can. I 
can work with our division and district to determine if there 
is any way to move this faster, but honestly I suspect that 
they are going as quickly as they can. But I will go back----
    Ms. Norton. I was sure that you would say that, and I am 
sure that they are. But I wish you would get back to me after a 
month's time to see whether there is any way to speed up that 
timeline.
    General Bostick. I will.
    Ms. Norton. And I would like to ask you about----
    Mr. Gibbs. Mr. Babin.
    Dr. Babin. Thank you, Mr. Chairman. I wanted to ask a 
question of Secretary Darcy. It is my understanding that the 
Port of Houston, which I represent, and the Corps of Engineers 
have identified a significant safety concern along the Houston 
Ship Channel at what we call Bayport Flare; and there is a 
challenge in finding the appropriate authority to effectively 
address this situation. It is also my understanding that this 
is primarily because of a project 902 limit which is 
restricting the Corps' ability to fix the Bayport Flare.
    While 902 is an important provision that helps control 
costs, it should not be an impediment to addressing an 
immediate navigation safety concern. If a local entity like the 
Port of Houston wants to work with the Corps to address these 
sorts of critical safety concerns, is the Corps permitted to 
grant a waiver to the 902 limit and allow this critical safety 
issue to be addressed? Do you have that waiver authority, or 
will it take congressional authorization? Do you know?
    Ms. Darcy. I don't know for certain, but what I do know is 
I don't believe that we can waive 902. However, we may be able 
to find other authorities that could be used in order to 
address this as either an emergency or a safety issue, that we 
might be able to proceed without having to do a 902, but I 
would need to check for you, Congressman.
    Dr. Babin. OK. Would you support legislation that would 
give the Corps the ability to grant 902 waivers under these 
circumstances if it is a safety concern?
    Ms. Darcy. Again, I think that we may be able to address 
the concern because it is a safety concern or risk to public 
health or life and safety, without having to get a waiver from 
902, but, again, I would have to check on that for you.
    Dr. Babin. Well, we had a collision down at the Port of 
Houston just a few weeks ago, and I am not blaming the Bayport 
Flares for this because it was not in that area, but with 
shipping soon to be coming from Panama, the Bayport Flares need 
to be widened and deepened as well. So what are you suggesting? 
Can you give me some specifics on what other entities might be 
able to help us with this situation?
    Ms. Darcy. I think that if it is truly a safety issue, we 
may be able to consult with the Coast Guard as to how we might 
be able to, in the short term, resolve this safety issue and 
also looking also internally about what other authorities we 
might have to have to be able to address the problem.
    Dr. Babin. It is a problem. Very much one. Thank you. I 
yield back, Mr. Chairman.
    Mr. Gibbs. Mr. Graves.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. First of 
all, thank you for being here. And, General Peabody, I want to 
join Congressman Davis in giving accolades to you. I have 
enjoyed a working relationship with you and look forward to 
your future and wish you luck.
    I would like to associate my comments with Congresswoman 
Johnson who expressed concern over the $130 million holdback. 
Madam Secretary General, that is a strong concern. One thing 
that you do, and I really appreciate the jurisdiction of this 
full committee in that it has jurisdiction over Stafford Act, 
FEMA disaster response, and Corps of Engineer mission, which is 
largely the proactive efforts. Study after study indicates that 
proactive efforts pay off multiple times over as compared to 
reactive efforts, and obviously Hurricane Katrina is a perfect 
example of that where we probably expended 10 or 12 times as 
much money doing disaster response as we would have if we had 
just actually done the proper protection on the front end.
    First question for you. Back in 2013, the White House 
announced that they were going to shut down White House doors 
and save the Government approximately $70,000 in doing so. 
During the same period of time, the Corps of Engineers has 
spent $72 million in the Morganza, the gulf project studying it 
since approximately 1992. You spent $20-something million 
studying the West Bank project for over 40 years in south 
Louisiana. You have spent over $100 million and studied the 
Louisiana coastal area restoration efforts, ecosystem 
restoration efforts, and spent over 20 years doing that.
    Can you help me reconcile the cost savings that the White 
House was trying to achieve while the Corps of Engineers is 
spending hundreds of millions of dollars and decades studying 
projects that we should be moving forward on today?
    Ms. Darcy. The reconciliation of those expenditures are 
ones that I can only say that the Army Corps of Engineers has 
spent a great deal of time and efforts on those studies. One 
thing that we are doing as a result of not only some 
initiatives we have taken but also initiatives that the 
Congress has directed us to take, is to reduce the time and 
expense of our studies. We have a 3x3x3 requirement now that 
will require that all studies will take place in 3 years with 
$3 million or less and be integrated in the vertical team 
within the Corps headquarters as well as the district and 
division. Those are ways that I think we have taken initiatives 
to be able to reduce our expenditures on studies as well as the 
time. I know there has been a long history of longtime studies 
in the State of Louisiana.
    Mr. Graves of Louisiana. Thank you, Madam Secretary. 
Another question, in a previous life I had the chance to carry 
out water resource projects in Louisiana and partner with the 
Corps of Engineers. In numerous instances we were able to build 
the entire project for the 35-percent cost share that the Corps 
estimated was our cost share. So say, again, for 35 percent of 
the cost we built the entire 100 percent project, and we were 
able to do that oftentimes in half of the time that the Corps 
of Engineers estimated. Can you just very briefly explain any 
project delivery mechanism efficiencies that you are pursuing 
today?
    Ms. Darcy. We have established a Corps cost control board, 
and that is looking at not only the escalations of costs, but 
also how we can reduce existing costs. What we have discovered 
over the last couple of years is we were coming up against our 
902 limit too many times, finding out not only was the 
contingency built in, but then a project came up to the 902 and 
without enough time in advance to either make cost adjustments 
or be prepared to ask for what we call a 902 fix, a legislative 
fix. So that is one of the things we have done, and the General 
may want to add----
    General Bostick. The only other thing I can add is that we 
have seen great projects. And Representative Graves, you have 
seen what we have done in the HSDRRS Project. We did the same 
thing in BRAC, about $12 billion worth of work in 6 years, and 
one of the keys was upfront funding, so contractors know what 
they are going to receive and when they are going to receive it 
and they can execute the project on a reasonable timeline. The 
other thing we have done is brought the contractors in early 
along with the stakeholders so we don't have the changes which 
usually cause projects to be extended.
    Mr. Graves of Louisiana. General, thank you, and I 
appreciate you recognizing that. There are fundamental flaws in 
the current project delivery mechanism and, look, and I will 
agree with you or perhaps where you were leading, Secretary 
Darcy, in that I think the Congress has some culpability in 
this flawed process.
    But this year, for example, the budget request comes in at 
$750 million below last year's actually enacted dollars in 
terms of construction funds. When you look at the backlog of 
projects totaling tens of billions of dollars, when you look at 
the vulnerabilities that are out there, General and Secretary 
Darcy, I want to remind you, we lost 1,200 Louisianians in 
Hurricane Katrina, 1,200. There is not a single one of those 
people that should have been lost. Hurricane Isaac in 2012, we 
lost another two or three, if I recall, particularly on the 
West Bank at Plaquemines Parish which the Corps initially 
indicated in 2006 they would be protecting. These lives, this 
loss of lives, first of all, they matter. And second of all, 
every single one of them was preventable. Call me dramatic, 
whatever you want, you need to be thinking about what you are 
going to tell these families in the future whenever these 
projects that have been here in the study process now for 
decades, what you are going to tell them whenever they lose 
family members, because it is going to happen. And when we have 
a hurricane come up and takes a trajectory just to the west of 
Hurricane Katrina hit, I am telling you right now, and you all 
know it too, we are going to have probably hundreds of lives 
lost, entirely preventible. Meanwhile FEMA is coming in and 
spending billions of dollars, billions of dollars, responding.
    Last question in this round. I want to ask about waters of 
the U.S. You look at the fact that we have lost 1,900 square 
miles of coastal wetlands in the State of Louisiana, 1,900. 
Virtually all the studies that are out there indicate that that 
land loss is attributable to Corps of Engineers actions in 
terms of modifying the hydrology on the Mississippi River 
system. Can you explain to me or reconcile the waters of the 
U.S. rule and out there touting the importance of wetlands, 
while the Corps of Engineers, being the largest cause of 
wetlands lost historical in perspective in the United States?
    Ms. Darcy. The waters of the U.S., not only existing waters 
of the U.S. under the Clean Water Act, but the proposed rule, 
will continue to protect wetlands. And as you probably know, 
many of the projects that the Corps of Engineers has built and 
will build in the future will all consider the mitigation of 
wetlands loss under law. So the fact that the hydrology of the 
gulf coast is being impacted by these projects is something in 
the future we need to consider as far as the wetland loss, 
because it is a huge loss to the State of Louisiana, as well as 
to the country.
    General Bostick. I would just offer that the Corps of 
Engineers builds what the American people, the Congress, 
authorizes and appropriates. We don't come up with our own 
ideas on projects. The first Chief's Report I signed as the 
Chief of Engineers was the Ecosystem Restoration Project at the 
Barataria Basin down in New Orleans to try to help balance some 
of the structural and nonstructural type of work that we do. 
But America has changed and is looking more at environmental-
type work, at ecosystem restoration work, which we agree is 
very important.
    Mr. Gibbs. Representative Graves, since you have to leave, 
did you have another question you wanted to ask?
    Mr. Graves of Louisiana. I do. Thank you, Mr. Chairman. 
Thank you, Congresswoman Napolitano. I did have another 
question. Chief, you just pointed to the fact that Congress 
writes laws, and that is why we are here. I had the chance to 
work with some of the people sitting behind you on WRDA 2007 
conference, in fact, some of the people sitting next to you on 
WRDA 2007 conference. If you take Hurricane Katrina to the 
current, I believe there are 16 different statutory deadlines 
that were placed in various bills, WRDA 2007, various 
appropriations bills since Hurricane Katrina. The Corps of 
Engineers has missed every single deadline that was in the law.
    Rolling forward to WRDA 2007 authorizing provisions, 
numerous places, ``the Secretary shall,'' crystal clear; there 
is no discretion, black and white. I can go through there and 
find over and over and over again where the Corps of Engineers 
flat out ignored, ignored the provision; and my 10-year-old 
could tell us exactly what it means. This whole organization is 
here, the Congress is here to write laws. And it is the Corps' 
job to actually enforce, to implement those laws. When we sit 
here and do these things, and you just decide what you are 
going to follow and what you are not going to follow, what does 
that say to us? Why are we even here if you guys are going to 
just do whatever you want?
    General Bostick. In all due respect, Congressman, we do 
follow the law, and we respect the Congress, we respect the 
law; and to the degree possible with the resources and the time 
and the expertise that we have, we work as diligently as our 
teammates can to follow that law and to execute it to the 
letter as best we can. There are some times where lawyers 
disagree on how to interpret different parts; and in those 
cases we come back to the Congress and try to get the clear 
interpretation, but in no way would we just flagrantly decide 
that we are going to disobey the laws of the country.
    Mr. Graves of Louisiana. General, I think you and I need to 
sit down and look at some laws, and I think that you would come 
to a very different conclusion. Unfortunately the State of 
Louisiana has had to sue the Corps of Engineers because of 
fatally flawed interpretations of laws that are delaying 
projects.
    Thank you, Mr. Chairman. I just want to say when you work 
on WRRDA 2014 implementation, I have already seen some 
implementation guidance come out that I think deviates from 
congressional intent, and I just want to warn you that we are 
going to be paying very close attention. Thank you very much.
    Mr. Gibbs. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. Yes, Secretary 
Darcy, there is a question in regard to a dam in California, 
Matilija, the Ecosystem Restoration Project, which was 
authorized in WRDA 2007, but there is yet to receive any 
construction. I understand you don't have the budget. I 
understand priorities. But the project apparently is quite 
critical for the restoration of the creek. There is a 
restoration of critical steelhead runs in the Ventura River. It 
has not yet risen to the level of being included in the 
President's budget. As a result, no construction appropriations 
are likely for the project due to the current moratorium on 
earmarks, which we all love but we wouldn't want back.
    However, that does not diminish the importance of the 
project to the community, to the economy, or to the restoration 
of the steelhead population. And apparently there has been a 
discussion with Congresswoman Brownley who represents that 
area. The local sponsors understand that there are individual 
components to the project that may be good candidates for 
construction using one of the Corps continuing authorities. Can 
you commit to working with us to explore whether this is a 
possibility so that this important portion of the project can 
get underway as we continue to try and move forward with the 
larger projects? Is it a way the locals are willing to sit and 
see if they can't break off the pieces into smaller elements? 
And certainly we need to be able to at least assist them in 
moving, since 2007, that is quite a few years ago.
    Ms. Darcy. Yes, Congresswoman, we can look into whether 
there can be a CAP authority for a separable element because 
Matilija is I think the dam I think you are referring to, and I 
think that is a pretty big project.
    Mrs. Napolitano. I really appreciate it, ma'am.
    Ms. Darcy. Sure.
    Mrs. Napolitano. Yes. To Mr. Johnson, in your testimony, 
you refer to the construction of the ward's Watts Bar Nuclear 
Plant No. 2. Now, in California we have got a couple of nuclear 
plants, and unfortunately one of them as you know has been 
shuttered because of problems. My concern has been through my 
years in the State assembly, of moving the nuclear waste to 
repositories because there is no way to get rid of it, the 
millions of years that they say it takes to, what did I say--
diminish the impact. What are the plans to be able to move the 
nuclear waste generated because this is a very, very serious 
issue throughout the United States from nuclear plants?
    Mr. Johnson. Thank you, Congresswoman. We operate six 
nuclear reactors today. With the addition of Watts Bar 2, that 
will be seven, and we currently store all of our own used fuel. 
So at each of our plants we have pool storage for long-term 
storage.
    Mrs. Napolitano. How long?
    Mr. Johnson. You can put it in the pool indefinitely but 
typically at least 5 years. And then you move it out into 
another form of storage. And currently we are using dry cask 
storage, large, secure, very heavily secured casks, to store 
the fuel on site, which can also be done indefinitely and 
safely. You know, there is probably a more efficient way to do 
this in a centralized repository of some kind, but we have the 
capability to do this for the life of the plant and the safe 
life of storing the fuel.
    Mrs. Napolitano. And what is the life of the plant?
    Mr. Johnson. Typically today you would think about 60 years 
at least of the useful life of the plant.
    Mrs. Napolitano. Somewhere along the line I had heard that 
there was an effort being made to recycle some of the spent 
fuel?
    Mr. Johnson. Yes. Recycling spent fuel is done around the 
world, done in France, Japan, Russia. We have not done it here. 
Some of the things that President Carter did in 
nonproliferation kept us from recycling, and also historically 
it hasn't been economical as compared to making new fuel, but 
we never took into account the storage question. So I hope we 
do get to recycling here because there is a lot of energy left 
in the fuel that we could reuse.
    Mrs. Napolitano. Well that is something we may want to look 
at in the future because that can pose danger to the 
communities, as we have found out in San Clemente, and it is 
something that we all are critically aware of.
    Back to Ms. Darcy; I want to be sure that we are going to 
be sending you a little note, a little love note, in regard to 
the harbor maintenance because I am reading the WRRDA, the two 
sections that deal with the expanded uses, and I certainly 
would want a clarification. If not then, we will maybe put 
stricter language to be able to determine where that, the total 
amount collected in the immediate 3 years of the harbor 
maintenance taxes, where that amount can be forwarded to.
    Ms. Darcy. OK.
    Mrs. Napolitano. OK? Thank you, Mr. Chair.
    Mr. Gibbs. I will start with Mr. Johnson. You finally get a 
question, so thank you for your patience. I want to talk a 
little bit about the TVA's debt limit. The limit is $30 
billion, and you have kind of been pushing that. In your 
strategic plan you say that TVA would reduce its debt by $3 
billion to $5 billion over 10 to 12 years. Is that still the 
plan?
    Mr. Johnson. That is the plan, yes, sir.
    Mr. Gibbs. And how would you avoid reaching that $30 
billion? Can you go into details a little bit about the plan?
    Mr. Johnson. Yes. There are basically two elements of our 
financing, which is debt and rates. We can raise rates. And our 
general plan over the next 10 years is to reduce our operating 
costs, be much more effective, incrementally raise rates, get 
through a big capital spending, and reduce our capital 
spending, and then bend that debt curve down, which I think by 
about 2023 should be $20 billion or $21 billion.
    Mr. Gibbs. On an annual basis how much is TVA for interest 
expense?
    Mr. Johnson. Our average expense is about 10 percent of our 
total, so $1 billion in interest expense.
    Mr. Gibbs. OK. TVA recently purchased a natural gas plant 
in Virginia. Can you please explain TVA's rationale to expand 
its fleet of facilities given TVA's large number of older 
facilities that need maintenance?
    Mr. Johnson. Yes, it was actually in Mississippi. We bought 
a gas plant recently in Mississippi.
    Mr. Gibbs. Oh, it is not in Virginia?
    Mr. Johnson. No. It is in Mississippi.
    Mr. Gibbs. OK, so it was an error from my staff.
    Mr. Johnson. I am pro everything, but mostly I am pro 
consumer. And so the reason we would buy a gas plant instead of 
retrofitting an older plant is because it is the cheapest way 
to serve the consumer. So, we got a very good price on this gas 
plant, and natural gas is fairly reasonably priced and 
projected to be so for a long time; so this is the best move 
for our consumers.
    Mr. Gibbs. OK. Well I want to commend you for your short 
tenure there and the work you are trying to do to address the 
issue. As we said in my opening statement, your operations are 
self-contained, funded; but there is always that liability 
aspect if something were to go wrong that could come back on to 
Congress and taxpayers. So thank you for that.
    Ms. Darcy, there is no provision in section 7001 for adding 
criteria or for projecting studies and projects from the annual 
report that meet all five criteria that are in law. Can you 
describe to us the list of projects submitted that met all five 
criteria pursuant to section 7001 in WRRDA?
    Ms. Darcy. I believe that in the report that we have 
submitted for 7001, there were 19 projects that met those 5 
criteria and appeared in the report.
    Mr. Gibbs. Nineteen. OK. I want to talk a little bit about 
the annual report. I think you would probably agree that the 
first one you did was a little incomplete or inconclusive. The 
question that really comes up, it was clear, I think, in the 
intent of Congress implementing this, that as long as the five 
criteria were met, everything comes to Congress, to this 
committee; but the Corps has put in an administrative review 
process. I will give you two examples of that. The Brazos 
Island Chief's Report. Two Chief's Reports were in the appendix 
because of administrative review. Then we have in the city of 
South El Monte, California, a land conveyance which has been 
held up to my understanding, which seems to me that should be a 
pretty simple procedure to move forward, and I guess my 
question is where did this administrative review come in that 
is holding up inclusion of all the things out there that should 
be in the annual report?
    Ms. Darcy. The administrative review is required under 
Executive Order 12322, which we have to do whenever we submit a 
report to Congress. The 7001 report is one of those. And in the 
administrative review, the two projects that you referred to 
were the two Chief's Reports that were not in the report but 
appeared in the appendix. Every submission we got from the 
public appears in either the report or the appendix. And the 
two Chief's Reports that did not appear are because they had 
not yet gone through administration review.
    Mr. Gibbs. OK. I just want to make it clear to the 
administration what I think Congress' intent was, that as long 
as the criteria is met that it is under Federal purview, 
jurisdiction, the Corps, that these things should be coming to 
us to make a determination. And so we have got a little 
heartburn, I guess to say, about the administrative review 
process. We wanted to make that clear.
    The other concern I have on the annual report is I am not 
convinced on the implementation out to the country, out to the 
districts, that the word has been put out how this process is 
supposed to work now since we don't have earmarks. As you know 
the process is supposed to work where the local districts be 
the lead entity working with port authorities, local 
governments, and develop or identify the challenges out there 
and put that in the report. I had some officials in from the 
Galveston-Houston area last week, and I explained that to them. 
I said go back to the Galveston district and talk to them and 
see what is going on.
    I will just hold this out as an example because there's a 
couple projects one that needs a reauthorization or addendum, 
but there is one that will be a new authorization for a study 
on the flood gate, flood wall there in Galveston, the bay into 
Houston. It seems to me that ought to be a top priority, 
national priority. Because I know when, I think it was 
Hurricane Ike or Rita, whichever one, hit that, up in Ohio, 
northeast, we felt the results of that because of all the 
refineries down there. And so, I want to make it clear that 
hopefully the Corps is doing the job of getting this word out 
and how this process is supposed to work now and work with the 
local entities. But I was kind of surprised that they came to 
me first and wanted to know, well, can you get this authorized. 
And I said, well, you have been working, so it was kind of 
unclear. So I just wanted to----
    Ms. Darcy. We are, Congressman. We are going to do more 
outreach with our districts so that everyone is aware of just 
what exactly the process is. As you know, this is the first 
time we did this. We did it pretty quick, by February 1. And 
also when we put out our public notice in the Federal Register 
in May, we are going to be more clear about what exactly needs 
to be involved in this----
    Mr. Gibbs. I could be wrong on this, but the February 1 I 
think was for future years. I don't think it was for this year 
as much. They are shaking their heads I am right on that. So 
that might have been a miscommunication, and so it maybe caused 
some of the problem. But I just want to make sure going 
forward, that everybody understands what we are trying to do in 
this report. And so since we don't have earmarks, this should 
be a very transparent process that would lead to accountability 
but then also identifying those needs and challenges out there 
in the countryside, I think that is the best way to get it from 
the grassroots up. And we got to make that work, and I am sure 
that General Peabody and General Bostick and everybody wants to 
do it that way, but we have got to make sure we get it done.
    Mr. Rokita, I think is next on the list. We will be back.
    Mr. Rokita. I thank the chairman. I thank the witnesses for 
their testimony. I couldn't be here for most of it because I 
happened to be chairing another subcommittee, but I had some 
staff in the room, and they have listened and reported. And so 
forgive me if these questions might seem repetitive. I am told 
they are not.
    As a member of the subcommittee, I have been trying to 
study as best I can the different issues and relaying and 
applying them to the situation in our State of Indiana, and I 
come up with these. If the States were to take over the 
internal waterway dredging, would that free up the Corps to 
pursue its locks and dams projects faster?
    Ms. Darcy. Talking about the locks and dams on the inland 
waterways system----
    Mr. Rokita. But the question is generic. I mean, just 
conceptually if States were to take over the dredging 
responsibilities, would you be able to move faster on your dams 
and locks projects?
    Ms. Darcy. The dams and locks projects are funded out of 
the Inland Waterway Trust Fund, and that is for improvements. 
It is not for dredging of that system. So if the States took 
over the dredging, it would not really impact the funding for 
the modernization or the upgrades of the locks and dams.
    Mr. Rokita. Because right now the dredging is your 
responsibility, and where does that funding come from?
    Ms. Darcy. That comes from General Treasury. I mean that 
comes from our budget.
    Mr. Rokita. So if we were to take it over, the dredging is 
behind schedule is my point. Right, or not?
    Ms. Darcy. The dredging, it is essential. Because it is a--
--
    Mr. Rokita. If we were to take it over, fight about who is 
paying for it later, would that free you up?
    General Bostick. In terms of----
    Mr. Rokita. General?
    General Bostick. They are not as related. It seems that 
way. But one, it is different pots of money for the 
infrastructure improvement of the locks and dams and then the 
dredging.
    But the other challenges, these inland waterways are all 
connected, and it is really a national system, and the Corps 
has responsibility to ensure that that national inland waterway 
system is operating, and there are puts and takes, and there 
are key decisions all up and down the inland waterways. If a 
State chose because of lack of funding or some other reason 
that they could not prioritize it, then the Nation would have 
an issue.
    Mr. Rokita. Any worse than now? You are behind.
    General Bostick. I think so. I think we----
    Mr. Rokita. Worse than you?
    General Bostick. Right now, the responsibility is on the 
Corps of Engineers to ensure the dredging occurs to manage 
flooding, so navigation and flood risk management all come 
together. So it is complicated.
    Mr. Rokita. I take your point. I take your point.
    What was the last new project undertaken by the Army Corps 
of Engineers, and what year was it? The last new project.
    General Bostick. We have projects ongoing. Olmsted is a 
good example that we are in.
    Mr. Rokita. How about new development project?
    Ms. Darcy. This year's budget included funds to begin 
construction of the deepening of the Savannah River Channel. 
That began this year.
    Mr. Rokita. OK. Anything else to point to?
    Ms. Darcy. Beginning of construction in this calendar year.
    Mr. Rokita. For example, this committee, some members of 
this committee went down to Panama. We saw their new locks 
being built.
    Ms. Darcy. Right. Well, that is one of the reasons Savannah 
wants to go deeper. We are deepening Savannah.
    Mr. Rokita. But anything new like that, that the Army's----
    Ms. Darcy. We are currently looking----
    Mr. Rokita [continuing]. The Corps is undertaking?
    Ms. Darcy. Not undertaking. We have studies for deepening 
projects, including Charleston Harbor, but as far as a 
construction new project this year, SHEP is the one that comes 
to mind.
    Mr. Rokita. Let me ask this one. I have got about 1 minute 
left. The Harbor Maintenance Fund generates a surplus every 
year under my study. That is correct, right? What can be done 
to protect these funds to be used for water projects only, and 
does the administration support using the fund for water 
projects only?
    Ms. Darcy. The Harbor Maintenance Trust Fund, as you noted, 
takes in more than it expends. This budget requests $915 
million to come out of the Harbor Maintenance Trust Fund for 
this fiscal year. That is what we believe is affordable at this 
time, and that is the intended use of those funding for the 
operation and maintenance of those coastal harbors.
    Mr. Rokita. OK. So none of the harbor maintenance funds are 
used for anything but water projects?
    Ms. Darcy. In our appropriations bill the $915 million is 
used just for water projects.
    Mr. Rokita. So there is no fund money going to anything 
else?
    Ms. Darcy. The outstanding balances are used for other 
purposes within the Treasury.
    Mr. Rokita. Not water projects?
    Ms. Darcy. Or other uses within the Treasury, so perhaps 
not.
    Mr. Rokita. Right. But my question was, your opinion, and 
where is the administration. Does the administration support 
water projects only? Or by virtue of what you just said, 
obviously not.
    Ms. Darcy. The administration supports its budget request 
of $915 million from the existing balance.
    Mr. Rokita. I think my time has expired. I appreciate the 
witnesses.
    Mr. Gibbs. Ms. Frankel.
    Ms. Frankel. Thank you, Mr. Gibbs.
    Thank you again for testifying. And I need to go back to my 
original questions because I think there was a little confusion 
in the communication. My first question was in regards to a 
provision we put in the last WRRDA bill that allows a non-
Federal sponsor to prefund the planning, and design, and 
construction phases at a project without congressional 
authorization and then later seek credit or reimbursement once 
it is authorized. That is section 1014. You know, when you 
responded, you commented on Mr. Webster's question, which is a 
little different, which had to do with another section, so--and 
I know you have a lot to talk about here, so my question was 
what--when do you expect there will be some guidance from the 
Corps on that provision?
    Ms. Darcy. Thank you for clarifying that. That was my 
mistake. Section 1014, you are correct, the guidance has not 
been finalized. It is in the queue. I will defer to staff to 
come up with a date when we will have it done for you, and I 
will get back to you.
    Ms. Frankel. OK. Thank you. And then I have another. My 
second question, which again, there's so many acronyms. I want 
to--the concern on that on the Broward Segment No. 2 is the--
not on the LRR, which I think you said we would have in May. 
The problem is that Broward County is waiving a project 
participation agreement. That is the issue. And they have been 
pushed back to January 2016, which would really almost take 
them out of the next tourist season.
    So I was--originally, it was set to be a November 1 date, 
2015, not January 2016, so I just have a request, and this, I 
guess, General Bostick, is whether or not you could take a look 
at expediting that PPA because it really--to try and coordinate 
between the turtles nesting and the tourists, there is a very 
short window to get this restoration done.
    General Bostick. Yes. Secretary Darcy had talked about the 
LRR being done in May of 2015, and then I followed up and said 
we need that to be completed in order to move to the PPA, so I 
wasn't tracking the timeline of 2016, but I will take a look at 
it and see if there is anything we can do to expedite it.
    Ms. Frankel. OK. Thank you very much. This has been sort of 
an interesting issue that came up. Again, I mention how 
important our marine industry is to Florida, especially in 
south Florida. We have an agency there called the Florida 
Inland Navigation District which sponsors a lot of marine 
projects, and they brought this issue to me. What happens, and 
I am going to try to put it in a practical way. Somebody, let's 
say a business wants to open, and they open a marine--a harbor 
in the inland coast land--coast of Florida. They do what they 
have to do, they get their permit, and you know 5, 10, 7 years 
later they have to do dredging, maintenance dredging.
    What is happening now is that they are being required to 
actually, if their seagrass has grown, to actually mitigate 
that. So they may have created the environment. In their 
original project, they create the environment that allows the 
seagrass to grow, and then what happens is, because the 
seagrass grows and they have to go through mitigation, and a 
lot of these folks are now avoiding the maintenance dredging, 
which we really need to have. So I don't know whether that 
issue has ever come to your attention before, but we have 
requested the--our local folks to take a look at that.
    Ms. Darcy. To my knowledge you are raising it for the first 
time, but if the locals have been in contact with the local 
Corps district as to what the possibilities are for maintenance 
dredging, I think that is the first step.
    Ms. Frankel. OK. Thank you very much, and I yield back, Mr. 
Chair. Thank you very much.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I said I would be back. 
So. Thank you for your patience today. I am sorry, Mr. Johnson, 
I don't have a question for you. If anybody wants to give me 
one on a TVA. It really doesn't impact Illinois where I am at 
that much. I would be happy to get you one, but thank you. 
Consider yourself lucky because I am probably going to be more 
little--a little more inquisitive this time than the last time.
    Ms. Darcy. I think he likes testifying with us.
    Mr. Davis. Yes. We will bring him back. We will bring 
Peabody back, too.
    Secretary Darcy, obviously you have known from my testimony 
before and my questions of you, I am very interested in the P3 
language that was inserted in WRRDA. It was a bipartisan 
approach that we took here. My colleague, Cheri Bustos, who 
serves on this committee, we were successful in inserting this 
language into the WRRDA bill, and I have some concerns that the 
Corps might lack some urgency in implementing this program.
    What specific steps are you taking to make sure that the 
public-private partnership program in WRRDA is a priority, and 
why has it taken so long to implement?
    Ms. Darcy. It is a priority both from response to the WRRDA 
language but also within the administration. We are looking at 
public-private partnerships, and as the Chief mentioned 
earlier, we are going to have to be looking for other sources 
of revenue to be able to address them, the infrastructure needs 
of this country overall.
    We are looking at individual projects to see if there are 
public-private opportunities there, underway, as to what kind 
of financing mechanisms we can use within our existing 
authorities and whether or not there are barriers in our 
existing authorities that we may need to alter in order to take 
other sources of funding. We are looking at a project, Fargo-
Moorhead, that has an opportunity for a private partnership, 
possibly public-private--public public-private partnership with 
a local community and then a private investor.
    Mr. Davis. And you are already working on a P3 with the 
Port of Tampa, right?
    Ms. Darcy. I believe so, yes.
    Mr. Davis. What is the status of that?
    Ms. Darcy. I don't know. Do you know, Chief?
    Mr. Davis. Can you get back to my office on that one?
    Ms. Darcy. Absolutely.
    [The information follows:]

        Recently, the Port of Tampa determined that they wished to move 
        forward with a reimbursement agreement as opposed to 
        contributing funds for the project. Corps of Engineers 
        headquarters is currently reviewing the letter report that will 
        be the basis for executing a reimbursement agreement for the 
        Tampa project. Section 120 of the Energy and Water Development 
        and Related Agencies Appropriations Act of 2010 directed the 
        Secretary to reimburse the non-Federal sponsor for the Federal 
        share of dredging work that the Tampa Port Authority 
        accomplished during the period from 2005 to 2010 to deepen the 
        Big Bend Channel from 36 feet to 37 feet. The authorized 
        project depth is 41 feet.

    Mr. Davis. Obviously, as the author of the language, we 
want to see action. I want to see more investment in 
infrastructure, and I know you just mentioned where you are 
looking at different projects. I want to--I want the Corps to 
actually look at bigger projects as possibilities for P3s, too. 
I represent northern Olmsted, and we have seen what that 
project has done over the last few years, and unfortunately, it 
leaves a bad taste in the mouth of many policymakers who want 
to see projects like that move on. I stood in Quincy, Illinois, 
years ago watching the Corps of Engineers pick which plan of 
action they were going to use to upgrade the locks and dams 
along the Mississippi River, and I believe Jen Greer was with 
me in those meetings.
    We want to see some action, and I think this is a tool that 
should be utilized, and frankly, you know, we have got--we have 
had--we feel like we have to put report language in the energy 
and water appropriations bill that is going to require the 
Corps to come up with some--with answers and also a schedule 
for issuing implementation guidance. We got to move faster.
    General Bostick. We absolutely think this is important. We 
have been pushing on this very hard. We think it is essential 
to our future. In fact, it falls under John Peabody's 
responsibility, and he hired somebody that wakes up every day 
thinking about alternative financing in P3. We have been 
working very closely with----
    Mr. Davis. And now he is leaving?
    General Bostick. Right, but he is going to leave it in good 
hands. And we have been working very closely with OMB on this 
as well. We are working within our authorities now, and we have 
limited authorities in that regard, but we are thinking about 
other authorities that we might need in order to make this a 
better opportunity for business and for the Federal Government.
    Mr. Davis. Well, we all have the same goal. We want to see 
projects get started and projects get completed. You have got a 
willing bipartisan committee here that is willing to help you 
if you need changes to authorities, but these are issues I wish 
we would have addressed before we passed WRRDA so that we can 
continue to make sure that this is a priority for the Corps and 
also a priority for this committee and this Nation. So my time 
is about to expire. I really appreciate you all being here, and 
General Peabody, good luck. Don't let that guy sleep. Thanks. I 
yield back.
    Mr. Gibbs. Mr. Rokita.
    Mr. Rokita. I thank the chairman again. Following up on my 
questions from before. I was asking about new projects, and my 
followup question would be what is more important, funding new 
projects or funding existing projects and getting them done, 
how do you balance it, and would it be helpful if there was a 
different kind of funding stream or source created by Congress 
to manage those two kinds of projects better?
    Ms. Darcy. Well, sir, in this year's budget submission, we 
had 54 projects for construction, and 9 of those are are funded 
to completion. So we are trying to focus not only on 
completions but we always focus on what are the highest 
performing projects for the overall value to the Nation. But we 
are focusing on completions. In this budget, there are 13 
feasibility studies funded to completion, so that is what we 
are looking toward.
    One of the provisions in WRRDA also directed us to come up 
with $18 billion worth of projects for deauthorization. So we 
are looking at our whole portfolio of what has been authorized 
and what has been constructed, not constructed, and what the 
universe is, number one, and number two, what of those projects 
within that $18 billion are probably not projects that warrant 
going forward. So that is going to help us get our arms around 
just how big our asset management needs to be.
    General Bostick. I think it is difficult, Congressman, to 
answer the question of what is more important. But we do get 
concerned when we lack the ability to build new construction. I 
think if you look at some of the studies that have been done, 
there is a lot that can be done with the infrastructure we 
have. We have infrastructure that is up to 100 years old, and 
if we maintain it, a lot can be done with that infrastructure 
by reinvesting, doing regular O&M and major rehabilitation when 
necessary, and that is where most of our funds are going. We 
have gone from a balance of construction and O&M to more on the 
O&M side as where we are spending most of our dollars.
    But we do need to look at our assets, and as part of what 
we are doing now, in deciding what do we retain, what do we 
divest of. As Secretary Darcy said, what do we repurpose. But 
the new construction like the Folsom Dam that we are doing and 
the Olmsted lock and dam, and those systems, the country will 
still need that kind of work, and we have got to think about 
how we do that.
    Mr. Rokita. Thank you. Speaking of the Olmsted Dam, do you 
think in that particular--or Olmsted locks, do you think in 
that particular situation there the funding is adequate for 
completion, or what would be needed to expedite it? Are you 
familiar with the particular project?
    General Bostick. It is a $3 billion project at this point, 
and we have the funds that we need, and we are on a good 
timeline to finish, so I think that is at a point where we are 
pretty confident of the budget in the timeline.
    Mr. Rokita. OK. How about the Soo locks? I mean, 20 years 
ago, if I get it right, Congress authorized funding. What could 
we do to expedite that project?
    Ms. Darcy. The replacement of the Soo locks, the new lock 
at Soo?
    Mr. Rokita. Yeah.
    Ms. Darcy. We did what is called a sensitivity analysis to 
look at whether the economics for that replacement lock are 
still viable, and we determined through that sensitivity 
analysis that yes, indeed, it was probably necessary to look at 
the economics, because as you said, it was authorized 20 years 
ago. And so in order to do that, the Corps would need to do 
what is called an economic reevaluation report.
    Mr. Rokita. OK. Are you doing it?
    Ms. Darcy. We have not undertaken that at this time.
    Mr. Rokita. OK. Are you?
    Ms. Darcy. We have not budgeted for that at this time.
    Mr. Rokita. Is that an internal decision you can make or is 
that something Congress has to bless or what?
    Ms. Darcy. It is a decision that we can make internally.
    Mr. Rokita. OK.
    Ms. Darcy. But we would need to find funding in order to do 
it.
    Mr. Rokita. OK. So this goes back to my last question, and 
it went to your value determination. Being new to the 
committee, forgive this if it is widely known, but when you all 
determine what the biggest bang for the buck, is, is value 
determination, complete a project, start a new one, value to 
the country, I think, was you term, is that decision guided by 
guidelines from Congress regulations or is it completely up to 
agency discretion?
    Ms. Darcy. Well, we base our budget recommendations on, as 
I said, the larger high-performing delivery for value to the 
Nation.
    Mr. Rokita. Yeah, but do you make what that--do you decide 
what that is?
    Ms. Darcy. We do, and that is reflected in the President's 
budget.
    Mr. Rokita. So your discretion.
    Ms. Darcy. Yes.
    Mr. Rokita. I would ask that your discretion include the 
Soo locks economic development phase. Thank you.
    I yield back, Mr. Chairman.
    Mr. Gibbs. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Johnson, in looking at the Tennessee Valley Authority's 
coal ash ponds, you have 24 existing and you are intending to 
convert all to dry, within 8 to 10 years. Where are you with 
that, and do you have any plans to recycle any of that ash? Or 
are you going to find permanent storage for it? Because that is 
contaminated.
    Mr. Johnson. Yeah. So after Kingston, we surveyed all of 
our coal storage facilities to make sure they were stable and 
sound, and we developed a plan about that timeframe, spent $2 
billion. This is mostly bottom ash that is not reusable, so our 
plan is to dry out the ponds and to cap them and rehabilitate 
the area. They will be brownfield sites, but they will be 
drained, capped, and suitable for repurposing. So we don't plan 
to use much of that. If we can find a use for it, as a 
beneficial reuse, we will, but we will cap and drain them.
    Mrs. Napolitano. Well, there is, you know, with all sorts 
of new technology coming to the forefront in recycling, I know 
even in my backyard we have recycling of contaminated material. 
Somehow we need to be able to see if there is anything that is 
being done to maybe recycle some of that ash or being able to--
if you are going to have permanent storage for it, where is it 
going to be, and is there any chance of it ever getting into 
the aquifer, if you are going to put it in an area where it 
might permeate the site?
    Mr. Johnson. No, we are going to make sure it doesn't 
affect anybody's drinking water or get in the aquifer. The way 
to do this is pretty well known. You dry out the ponds, you 
don't put anymore wet material in them, you cap them with a 
liner, a nonpermeable liner, you put clay over it, and you put 
grass over it. You know, a lot of people are looking at 
recycling opportunities, the Electric Power Research Institute 
and others, and if we can find a way to use it beneficially, 
that would be the first preference.
    Mrs. Napolitano. That would be great, and whatever I can 
do. If you are looking at doing a brownfield restoration, is it 
going to go in the Superfund?
    Mr. Johnson. No, no, we don't have any Superfund sites. So 
we do brownfield restoration. I am hoping we can attract 
industry, that kind of reuse on the sites, so put jobs back on 
those sites.
    Mrs. Napolitano. Right. Thank you so much.
    Thank you, Mr. Chair.
    Mr. Gibbs. OK, thank you.
    Ms. Darcy, I want to follow up a little bit. We were 
talking about the annual report, and a couple of questions come 
to mind. In the appendix, if it didn't have the administrative 
review process, I will get to that in a minute, but if that 
wasn't a consideration, of the projects listed in the appendix, 
how many would have been in the actual report if it wasn't for 
the administrative review process; do you know?
    Ms. Darcy. I don't. I don't, but I can provide that for 
you.
    Mr. Gibbs. Pardon?
    Ms. Darcy. I can provide that information for you.
    [The information follows:]

        If only the statutory criteria was used in the analysis (not 
        the administration policy review overlay), the total in the 
        report would have been 49, which is an additional 30 over the 
        19 that were included in the submission.

    Mr. Gibbs. OK. This is why I want to drill on this. It is 
my understanding that the Executive order the Corps used to do, 
the implementing guidance language for the annual report, is 
not a recent Executive order. I guess it goes back probably to 
before any of us were born. It is just an old Executive order. 
Is that correct?
    Ms. Darcy. The Executive order is a longstanding 
administrative review order that we----
    Mr. Gibbs. Because it seems to me there is a conflict here 
because the concern I have, the law, in the order was clear 
that if it made the five criteria, it goes in the report, not 
the appendix. The reason I think this is important, because the 
law is pretty clear, Members of Congress on this committee can 
only authorize what is in the report. The question is, would we 
be able to authorize or not, or address what is in the 
appendix? And there is a question that we probably can't, that 
is in the appendix, so there is a clear problem here.
    If something is in the appendix, we might not be able to 
address it, when we hopefully do WRRDA next year, and I would 
argue the law is clear, that everything should be in the 
report. That is what the law says. So the law should supersede 
the Executive order in the implementation of guidance.
    So that is a thought to think about, because I think we all 
want to get to the same place here, and if we, as a 
congressional committee, can't authorize projects, if it is not 
in the report because it is in the appendix which might be a 
technical thing, that might work against what we are trying to 
do. So I just want to raise that question and you can address 
it, but you can see what I am trying to say.
    Ms. Darcy. I understand your intent.
    Mr. Gibbs. OK. General Bostick, earlier this year you were 
recorded as saying that the construction backlog was $23.5 
billion. Is this reflected in WRRDA 2014 deauthorization of a 
number? We deauthorized $18 billion of projects. Can you kind 
of expound on how the Corps calculated the $23 billion in 
backlog? Was $18 billion included in that; where did that come 
from?
    General Bostick. No, the actual backlog is probably in 
excess of $60 billion. The number $23 billion was based on what 
it would take for us to complete the projects we are currently 
working on.
    Mr. Gibbs. OK.
    General Bostick. Currently funded and working on. It would 
cost about $23 billion to finish that and at a rate of about 
$1.5 billion annually in construction.
    Mr. Gibbs. Well, that gives clarity. That helps. I think we 
should be clear on that.
    Also, in WRRDA, the Corps is supposed to give us a list of 
projects that includes the deauthorization part. We haven't 
received that list yet. Do you have any idea when that list 
will be coming forward? Maybe that is Secretary Darcy, I don't 
know, either one, what is the answer?
    Ms. Darcy. I think it is due in September.
    Mr. Gibbs. Pardon?
    Ms. Darcy. September.
    Mr. Gibbs. OK. This year?
    Ms. Darcy. Yes.
    Mr. Gibbs. Just want to make that clear.
    Ms. Darcy. September 2015.
    Mr. Gibbs. OK. Thank you.
    General Bostick, the President's budget proposes $379 
million for the Corps of Engineers to construct ecosystem 
restoration projects. Of that amount, how much is devoted to 
projects to comply with the Endangered Species Act or other 
biological opinions? You might not be able to answer it, but 
you can try.
    General Bostick. I don't know the answer, but I will get it 
for you and follow up, sir.
    [The information follows:]

        The FY16 Aquatic Ecosystem Restoration program contained 
        approximately $144 million to fund actions in response to 
        Biological Opinions.

    Mr. Gibbs. OK. Because we have a concern--when I am out in 
the countryside talking to all different entities, working in 
the field and stuff, and Endangered Species Act, there are some 
things out there that need to be addressed, I think, some 
commonsense rationale.
    Can you give us, General Bostick, an update on the Olmsted 
lock and dam project? I know you hit on it a little bit with 
one of the previous questions from Mr. Rokita, but when do you 
expect the operational and completion date?
    General Bostick. I would to have follow up for you. To my 
recollection, it is in--well, I would have to follow up on the 
date. I would be or--pardon me? In the fall of 2018 is----
    Mr. Gibbs. Could you repeat that quick for us?
    General Bostick. The current projection is the fall of 
2018.
    Mr. Gibbs. Fall of 2018. I do want to commend--from the 
reports we are getting, things are going there well now, 
progressing well, and new project managers. Things actually 
could be ahead of schedule, so that is good because that 
project has been going on for a long time, and it is holding up 
a lot of other projects, so it is good to get that off the 
books and get done. And of course, the economic benefit for the 
entire country is immense.
    Ms. Darcy, developing an implementation of WRRDA, can you 
give us an update process where the Corps is in regard to 
WIFIA?
    Ms. Darcy. We are currently working with EPA to try to 
develop the guidance for the implementation of the WIFIA 
provision. It is one of those that is ongoing. I can check as 
to when we think that will be completed, but we want to be able 
to participate in that program in a way that it is going to be 
beneficial for using the intended provisions for Corps 
projects.
    Mr. Gibbs. OK. I do want to talk a little bit about waters 
of the United States. I know you don't call it that anymore, 
but I still do. First of all, what is the status of the final 
rule package? I know it went to OMB. Do you have any idea 
what----
    Ms. Darcy. The draft final rule went to OMB on the 3rd of 
April. Now it is in the interagency review process, and that 
can take anywhere from 1 month to--there is a 90-day clock, but 
we are hoping that we are able to complete that review before 
then.
    Mr. Gibbs. OK. Can you characterize the comments the court 
provided to the EPA and the waters of the U.S. rule package? 
How did the EPA address those comments in the rule package that 
went to OMB? You had about 1 million comments.
    Ms. Darcy. Right. We, the Corps of Engineers, worked hand 
in hand with the EPA in order to address those comments because 
this is a joint rule within the administration. So we responded 
to the comments. We posted them on the Federal docket, and many 
of the comments gave us some good information and some 
revelations and insights as to what appeared to be not clear by 
the language that we had provided. So in the final rule we are 
hoping to make some changes that will help to make things more 
clear than they were in the proposed rule.
    Mr. Gibbs. Can you verify or not? I heard from a fairly 
reliable source within the Corps, by the way, that I won't 
mention, that the U.S. EPA put out kind of a draft guidance to 
their regional offices regarding orders about 3 or 4 weeks ago.
    Ms. Darcy. You mean a draft proposed rule for them to 
respond to?
    Mr. Gibbs. For the implementation.
    Ms. Darcy. I believe that the regions, including our 
regions, all had a chance to look at what we were going to 
eventually propose to OMB for their input and----
    Mr. Gibbs. Well, wait, can you help me here a little bit. I 
am struggling here a little bit. We have a proposed rule, and 
we had a comment period and 1 million comments or so. Of course 
the EPA and the Corps haven't been forthright telling me the 
changes they are going to make or to the American public. 
Moving forward, OMB but then--and I think you just said it. 
U.S. EPA sent a guidance out to their regional offices about 
the implementation even though the final rule hasn't been 
approved by OMB.
    Ms. Darcy. No, Congressman, I believe--and I will also 
doublecheck with my colleagues at EPA, but I think what you are 
referring to is the draft final rule for the review of the 
regions in response to both the comments and the review period. 
It wasn't guidance. It was just what was anticipated to 
probably be the final rule that they could have input on.
    Mr. Gibbs. OK. So they shared it with the regional offices, 
but they haven't shared it with Congress or the public, what 
they expect the final----
    Ms. Darcy. That is right.
    Mr. Gibbs [continuing]. Proposed rule to be. Is that 
correct?
    Ms. Darcy. Yes.
    Mr. Gibbs. OK. That is interesting. I will get to you in a 
second. I think Mrs. Napolitano has another question, and I 
will get back. I do have one comment.
    When Ms. Norton was asking the questions about the cost. I 
know in the President's budget he puts $5 million in there for, 
as you said, for additional training, staff, for the additional 
permitting process, and then it will cost more if you go back. 
The bill we passed out of this committee last week says not to 
lose sight that there is other analysis out there that this 
proposed rule could cost stakeholders or the economy over $228 
billion. So the cost well exceeds the cost of taking a timeout, 
saying let's get this right, so that is my editorial comment on 
that, but I will also say on that part of it with the expansion 
of WOTUS, it will require more permitting. I think that is a 
lot of what this is all about, and the President's budget 
really concedes that because they ask for additional money for 
more staffing, for more--requires some more 404 permits, 
whatever, and so I think that kind of substantiates my concerns 
that just because there is more permitting out there, doesn't 
mean we are going to actually improve or protect water quality.
    I will turn it over to Mrs. Napolitano for another question 
she may have.
    Mrs. Napolitano. Thank you. And Madam Secretary, I 
understand you have to go back to the White House shortly.
    Ms. Darcy. I am supposed to be there at 1 o'clock, I think.
    Mrs. Napolitano. Well, I will just have--these are 
questions, but they can be answered in writing, and I noticed 
that there is a request--there is a statement on combatting the 
spread of invasive species, the carp, the fish. My concern has 
been the cost of the removal of the quagga and the zebra 
mussels. That cost a lot of money to be able to have in your 
dam operation, so would you report to us or would you let this 
committee know how much that is costing you to be able to 
address in your operations?
    Ms. Darcy. Of zebra mussels or----
    Mrs. Napolitano. Zebra and quagga, yes.
    Ms. Darcy. OK.
    Mrs. Napolitano. In your waterways. And the dam safety, it 
is so critical because in some areas, as we know, especially as 
Mother Nature continues to surprise us in many other States, we 
don't get the water in California but some of the States are 
having abundant water and storms. Dam and levee safety are 
critical for life safety, so any information that would be 
critical to us to be able to determine how can we help assess 
the status of the levees in some areas that have been hit by 
storms and have been inundated, so to speak, so with that, I 
would like just to have you maybe make a comment on that.
    Ms. Darcy. This budget gives more funding to the Corps to 
do more on our levee safety program, and we will be sharing 
that levee safety information with local communities, but any 
additional information you want on the dam safety program, we 
will be happy to provide that for the record.
    Mrs. Napolitano. Thank you so much, Mr. Chair.
    Mr. Gibbs. OK. Ms. Darcy, I have one followup or another 
question. But I would be remiss if I didn't bring up Cleveland 
and----
    Ms. Darcy. I thought we were going to get out of here.
    Mr. Gibbs. Everyone is chuckling because this has been a 
very hot topic and now there is a lawsuit involved. The Federal 
standard. My understanding is the Federal standard was put in 
place by the Corps back in 1988, and it was really to, you 
know, make sure who is paying for what, but the Federal 
standard, my understanding, says that dredge material will be 
disposed of in the most cost-effective environmentally safe 
way, OK. And so basically now what has happened in Cleveland, 
the State of Ohio, the Ohio EPA has a disagreement with the 
Corps of disposing of some of the dredge material out of the 
Cuyahoga River, and up previously, it has all been put in the 
confined landfill because of PCB issues, and now the Corps says 
part of that river, the contaminants aren't as great, that the 
PCB issue is not as much risk, even though they did concede to 
dispose of the dredge material 9 miles out in the lake to get 
away from the Cleveland water intake, so that is a little 
worrisome or interesting.
    The issue here with the PCBs I think is rather unique. I 
think when you look at disposing of dredge material around the 
country, around the Great Lakes, we know it is a phosphorous 
issue, a nutrients issue. According to the Ohio EPA, they have 
a fish advisory, I think in the law no more than once per week 
consumption, and they said they are real close to the threshold 
that could go to 1-month consumption.
    And so I guess I would look at the Federal standard, the 
big question here is that environmental safe aspect. Can you 
please comment on how you see the Federal standard working 
here, playing, and what discretion you as the Assistant 
Secretary of Civil Works would have in determining if the 
Federal standard, how it applies?
    Ms. Darcy. The Federal standard applies, and you are right, 
it has to be economically as well as environmentally sound. Our 
scientists, including our head scientist at ERDC, have 
concurred and determined that the levels for open lake 
disposal, or open water disposal, of the dredge material in the 
last mile stretch of the river would be suitable for open lake 
disposal. Therefore, the Federal standard would be to have that 
portion be disposed of in open lake.
    The Ohio EPA does not agree and believes that the remaining 
dredge material should be in a confined disposal facility. As 
you are aware, under the Federal standard, any additional cost 
above the Federal standard, which in this case would be open 
lake disposal for that portion, would need to be cost shared by 
the local sponsor.
    Mr. Gibbs. Now with the lawsuit the State of Ohio has filed 
in Federal court in Cleveland against the Army Corps on this 
issue, determining the Federal standard, basically, and who is 
going to pay the delta cost. I think everybody's in agreement 
for the Ohio EPA and I believe you are, too, you can concur 
that it is very imperative that the dredging get completed.
    I think in my previous conversations that you are committed 
to that, too, because the economic consequence to northeastern, 
northern Ohio is quite significant, and that is why I have been 
so involved to make sure this gets done. Now we just have the 
issue, who really is responsible, and the courts are going to 
work through that, I guess.
    I do believe that the Army Corps did send a letter to the 
Ohio EPA to say that last mile that is being challenged, that 
the Corps is willing to dredge as long as they pay it, so you 
made the offer and now I know there will be a counteroffer 
going to the court probably. But I hope that you are committed, 
and I know General Peabody and Bostick are committed to get 
this done even while it is going through litigation. I don't 
want to--hopefully, nobody is going to hide behind the wall, 
well, we are litigating now, we can't do it. I hope that is not 
going to be the attitude because I think it is a way to work 
through this during the litigation.
    Ms. Darcy. I hope that is the case as well.
    Mr. Gibbs. I thank you for your commitment that we can work 
through this, and I guess I won't get all too excited about--I 
know that from the Corps' perspective, there could be an issue 
about if this court decision, how this ever worked, goes 
against Corps, the Federal standard, that opens up the door all 
around the country. I might be totally off base here, but I 
think with the PCB issue, it is a little unique. This is kind 
of an interesting thought just come to mind. Do we have a PCB 
issue in dredge material anywhere else in the country like 
this? Is this rather unique? I see General Peabody kind of 
shaking his head.
    General Bostick. We have similar levels in other places.
    Mr. Gibbs. Pardon?
    General Bostick. We have similar levels in other places 
where we have open lake placement. So we are not treating this 
area differently than we are----
    Mr. Gibbs. Well, I guess this is where the court will have 
to make that determination. That is the court's, but I just 
want to make it clear. I hope that the parties involved here 
want to work through this so we can get done what needs to be 
get done even during the litigation process. That is what I am 
asking, and I think we are committed.
    Ms. Darcy. I hope that my lawyers say I can do that, but 
you know, I think we have had this conversation, too, 
Congressman. We need a long-term solution.
    Mr. Gibbs. Oh, I totally agree. And I think we are close. 
Was it the 217 agreement, or 26, I forget the number.
    Ms. Darcy. Yeah.
    Mr. Gibbs. Twenty-year plan. I think that we are close. I 
think the only issue is who is going to pay the dollar cost on 
the last mile of the 6 miles, that is where we are at. And 
alternative uses for dredging material, I think, as you look at 
the general public, we have to find alternative uses. And of 
course, in Cleveland, there is an alternative use. I think we 
can make it work, and I think the port authority and the State 
of Ohio wants to get there. Toledo is a bigger challenge 
because of the number of cubic yards out there of dredge 
material, but you know, there ought to be some value to that, 
it is high nutrients, and we just got to start thinking outside 
the box and figure out how we can make it cost benefit, make it 
work because I don't think the general public is going to be--
especially in Lake Erie because it is so sensitive because of 
the shallowness of Lake Erie, especially in the Western Basin.
    I appreciate the time and the commitment to do what we need 
to do here in America's maritime infrastructure. And Mr. 
Johnson, I appreciate your patience to sit through all this and 
not have as many questions towards you, but that doesn't mean 
that we are not concerned and we want to make sure that the 
Tennessee Valley Authority can move ahead and be profitable and 
work well, so I commend your work in doing it and your goals to 
get there. So thank you, and this adjourns our hearing.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
</pre></body></html>
